No. _____

IN THE

Supreme Court of the United States
_________
TREMAYNE T. DOZIER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit
________
PETITION FOR A WRIT OF CERTIORARI
________
SARAH M. KONSKY
DAVID A. STRAUSS
JENNER & BLOCK
SUPREME COURT AND
APPELLATE CLINIC AT
THE UNIVERSITY OF
CHICAGO LAW SCHOOL
1111 E. 60th Street
Chicago, IL 60637
THOMAS W. PATTON
JOHANES MALIZA
OFFICE OF THE
FEDERAL PUBLIC DEFENDER
600 E. Adams St., Third Floor
Springfield, IL 62701

MATTHEW S. HELLMAN
COUNSEL OF RECORD
NOAH B. BOKAT-LINDELL
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6000
mhellman@jenner.com

i
QUESTION PRESENTED
The Controlled Substances Act (CSA) imposes
sentencing enhancements based on an offender’s prior
felony convictions. 21 U.S.C. § 841(b)(1)(A). A “felony” is
defined, for purposes of the CSA, as “[a]n offense that is
punishable by imprisonment for more than one year
under any law of the United States or of a State.” Id.
§ 802(44).
The question presented is whether an offense is
“punishable by imprisonment for more than one year”
when the maximum term permitted by the applicable
statutory sentencing scheme at the time of conviction is
one year or less.

ii
TABLE OF CONTENTS
QUESTION PRESENTED ............................................... i
TABLE OF AUTHORITIES ......................................... iv
PETITION FOR CERTIORARI..................................... 1
OPINIONS BELOW .......................................................... 1
JURISDICTION ................................................................. 1
STATUTORY PROVISIONS INVOLVED .................. 1
INTRODUCTION .............................................................. 3
STATEMENT OF THE CASE ........................................ 5
A. Mr. Dozier’s 2006 Texas Conviction ..................... 5
B. Mr. Dozier’s 2017 Plea and Sentencing ................ 7
C. The Seventh Circuit’s Decision Below ................. 8
REASONS FOR GRANTING THE PETITION.......... 9
I. The Circuits Are Split On The Question
Presented ........................................................................ 9
A. The Fourth, Ninth, and Tenth Circuits,
and Likely the Eighth Circuit, Hold That
Convictions Like Mr. Dozier’s Are Not
“Punishable” By Imprisonment for More
Than One Year ....................................................... 10
B. By Contrast, the First, Fifth, Sixth, and
Seventh Circuits Hold That Convictions
Like Mr. Dozier’s Are Punishable By
Imprisonment for More Than One Year ............ 15
II. This Case Presents an Important, Recurring
Question of Sentencing Law, and Is An
Excellent Vehicle to Resolve That Question .......... 19
III. The Seventh Circuit’s Decision Is Wrong ............... 21

iii
CONCLUSION ................................................................. 25
Appendix A
United States v. Dozier, 949 F.3d 322 (7th Cir.
2020).............................................................................. 1a
Appendix B
Transcript of Conclusion of Sentencing
Hearing, United States v. Dozier, Case No. 1820002-001 (C.D. Ill. Nov. 9, 2018) ........................... 27a
Appendix C
Judgment in a Criminal Case, United States v.
Dozier, Case No. 18-20002-001 (C.D. Ill. Nov.
14, 2018)...................................................................... 37a
Appendix D
Judgment – Plea of Guilty or Nolo Contendere
Jury Waived – Felony Reduction Referral to
Magistrate, Texas v. Dozier, Cause No. F0637199 (Tex. 282d Dist. Ct. May 3, 2006) ................ 52a
Appendix E
Order Denying Rehearing En Banc, United
States v. Dozier, No. 18-3447 (7th Cir. Mar. 6,
2020)............................................................................ 57a

iv
TABLE OF AUTHORITIES
CASES
Burgess v. United States, 553 U.S. 124 (2008) .......... 24
Carachuri-Rosendo v. Holder, 560 U.S. 563
(2010) ........................................................ 4, 10, 21, 24
Moncrieffe v. Holder, 569 U.S. 184 (2013) ........... 22, 23
Rehaif v. United States, 139 S. Ct. 2191 (2019) ...19-20
United States v. Bates, 730 F. App’x 281 (6th
Cir. 2017) ............................................................ 11, 18
United States v. Brooks, 751 F.3d 1204 (10th
Cir. 2014) ............................................................ 11, 13
United States v. Davis, 139 S. Ct. 2319 (2019) .......... 19
United States v. Dixon, 724 F. App’x 334 (5th
Cir.), cert. denied, 139 S. Ct. 250 (2018) ......... 17, 19
United States v. Haltiwanger, 635 F.3d 881
(8th Cir. 2011) .................................................... 11, 15
United States v. Harrimon, 568 F.3d 531 (5th
Cir. 2009) .................................................................. 17
United States v. Lopez, 890 F.3d 332 (1st Cir.),
cert. denied, 139 S. Ct. 261 (2018) ................... 17, 20
United States v. Mulay, 805 F.3d 1263 (10th
Cir. 2015) .................................................................. 14
United States v. Newbold, 791 F.3d 455 (4th
Cir. 2015) .................................................................. 11
United States v. Perkins, 449 F.3d 794 (7th Cir.
2006) .......................................................................... 20
United States v. Pruitt, 545 F.3d 416 (6th Cir.
2008) .......................................................................... 18

v
United States v. Rivera-Perez, 322 F.3d 350
(5th Cir. 2003) .......................................................... 16
United States v. Rodriguez, 553 U.S. 377
(2008) .................................................................. 21, 22
United States v. Romero-Leon, 622 F. App’x.
712 (10th Cir. 2015) ........................................... 11, 14
United States v. Simmons, 649 F.3d 237 (4th
Cir. 2011) ................................................ 11, 12, 13, 20
United States v. Valdovinos, 760 F.3d 322 (4th
Cir. 2014) .............................................................. 5, 12
United States v. Valencia-Mendoza, 912 F.3d
1215 (9th Cir. 2019) ..................................... 11, 14, 15
STATUTES
18 U.S.C. § 922(g)(1) ..................................................... 11
18 U.S.C. § 924(e)(2)(A) ............................................... 11
21 U.S.C. § 802(44) ...................................... 2, 3, 7, 11, 14
21 U.S.C. § 841(a)(1) ....................................................... 7
21 U.S.C. § 841(b)(1)(A) ................................... 1, 3, 7, 21
21 U.S.C. § 846 ................................................................ 7
Tex. Health & Safety Code § 481.115 .......................... 5
Tex. Penal Code § 12.21 ................................................. 2
Tex. Penal Code § 12.35(a) ............................................ 5
Tex. Penal Code § 12.44(a) .................................. 2, 5, 23
Tex. Penal Code § 12.44(b) ............................................ 5
OTHER A UTHORITIES
U.S.S.G. § 4B1.2 cmt. app. ........................................... 11

1
PETITION FOR CERTIORARI
Tremayne T. Dozier respectfully petitions for a writ
of certiorari to review the judgment of the United States
Court of Appeals for the Seventh Circuit.
____________
OPINIONS BELOW
The Seventh Circuit’s opinion is reported at 949 F.3d
322 and reproduced in the Appendix hereto at Pet. App.
1a-26a. The District Court for the Central District of
Illinois’s November 9, 2018 oral order denying Mr.
Dozier’s argument that a sentencing enhancement under
21 U.S.C. § 841(b)(1)(A) was inappropriate is
unreported, but reproduced at Pet. App. 27a-36a.
____________
JURISDICTION
This Court has jurisdiction under 28 U.S.C. § 1254(1).
The Seventh Circuit entered its judgment on February
4, 2020, and denied both rehearing and rehearing en banc
on March 6, 2020. Pet. App. 57a-58a. On March 19, 2020,
the Court extended the time within which to file a
petition for a writ of certiorari to and including August
3, 2020.
____________
STATUTORY PROVISIONS INVOLVED
Before amendment by the First Step Act of 2018,
Pub. L. No. 115-391, 132 Stat. 5194, and as relevant here,
21 U.S.C. § 841(b)(1)(A), provided, in relevant part: “If
any person commits such a violation after a prior

2
conviction for a felony drug offense has become final,
such person shall be sentenced to a term of
imprisonment which may not be less than 20 years.”
Section 802(44) of 21 U.S.C. provides that “[t]he term
‘felony drug offense’ means an offense that is punishable
by imprisonment for more than one year under any law
of the United States or of a State or foreign country that
prohibits or restricts conduct relating to narcotic drugs,
marihuana, anabolic steroids, or depressant or stimulant
substances.”
Section 12.44(a) of the Texas Penal Code provides, in
relevant part, that “[a] court may punish a defendant
who is convicted of a state jail felony by imposing the
confinement permissible as punishment for a Class A
misdemeanor.”
Section 12.21 of the Texas Penal Code provides, in
relevant part, that “[a]n individual adjudged guilty of a
Class A misdemeanor shall be punished by ...
confinement in jail for a term not to exceed one year.”

3
INTRODUCTION
This case presents an important and recurring
question about the interpretation of language applied
throughout federal criminal law, on which the federal
circuits are sharply divided. After petitioner Tremayne
Dozier pleaded guilty to a drug offense in 2018, his
sentencing court determined that his mandatory
minimum sentence must be increased by ten years
because of a 2006 Texas state conviction. The court
applied 21 U.S.C. § 841(b)(1)(A), which provides that a
defendant with a prior “felony drug offense” is subject
to a mandatory minimum sentence of twenty years in
prison. Congress defined “felony drug offense” to
include specific drug-related offenses “that [are]
punishable by imprisonment for more than one year
under any law … of a State.” 21 U.S.C. § 802(44).
At the time of Mr. Dozier’s 2006 Texas state
conviction and sentencing, he faced a maximum sentence
of less than twelve months’ jail time under the applicable
Texas state-law sentencing regime. He had been
sentenced pursuant to a Texas state-law sentencing
regime that, upon the judge’s acceptance of his plea,
required the judge to sentence him to less than twelve
months’ jail time.
If the present case had arisen in the Fourth, Ninth,
or Tenth Circuits, or likely in the Eighth Circuit, Mr.
Dozier would not have received a sentence enhancement
because of that prior conviction. Those courts hold that
for purposes of the statutory language at issue in this
case, an offense is punishable by more than a year only if
that defendant could have been sentenced to more than
one year of imprisonment at the time of their conviction.
In contrast, a divided panel of the Seventh Circuit below

4
joined the First Fifth, and Sixth Circuits in construing
the word “punishable” to include hypothetical sets of
facts that could yield felony convictions carrying a
sentence in excess of a year. Because of the Seventh
Circuit’s interpretation, Mr. Dozier received a
mandatory minimum of twenty years in prison instead
of ten.
The acknowledged and entrenched circuit split on
this important question stems from disagreement about
this Court’s decision in Carachuri-Rosendo v. Holder,
560 U.S. 563 (2010). In Carachuri-Rosendo, this Court
considered whether a defendant had been “convicted of”
a crime “punishable as a federal felony”—that is, a crime
for which the “maximum term of imprisonment” under
the CSA exceeded one year—for purposes of federal
immigration law. Id. at 567-58 (citation omitted). The
Court held that “[t]he mere possibility that the
defendant’s conduct, coupled with facts outside the
record of conviction, could have authorized a felony
conviction under federal law is insufficient.” See id. at
582 (emphasis added). Dissenting below, Judge
Hamilton explained that the panel’s decision was “not
consistent with Carachuri‐Rosendo or the recent
decisions of our colleagues in other circuits” because a
sentence of more than one year “was legally impossible
[for Dozier] after the judge accepted Dozier’s binding
plea agreement and convicted him.” Pet. App. 15a, 24a.
The split here warrants review because it yields
dramatically different sentences for defendants
depending on where their case arises. The split also
warrants review because it raises important federalism
concerns. The Seventh Circuit’s decision ignores the
Texas legislature’s choice of how to structure its state

5
sentencing and plea bargaining regimes. It forces
federal judges to enhance sentences, despite “the
particularized evaluation of the need for just punishment
by a local prosecutor (an agent of a duly-elected,
Constitutional officer of the sovereign State …), under
the authority of state statutory law, of the actual facts at
issue, and agreed to by a state judge (likewise, a dulyelected, Constitutional officer of the sovereign State
…).” United States v. Valdovinos, 760 F.3d 322, 338 (4th
Cir. 2014) (Davis, J., dissenting).
The Court should grant certiorari.
STATEMENT OF THE CASE
A. Mr. Dozier’s 2006 Texas Conviction
In February 2006, Mr. Dozier was charged in Dallas
County, Texas, with a violation of Texas Health and
Safety Code § 481.115. That statute, which criminalizes
possession of less than a single gram of cocaine,
describes the offense as “a state jail felony.” Tex. Health
& Safety Code § 481.115(b). The Texas Penal Code sets
out a multi-tiered sentencing regime for a § 481.115
conviction. By default, the offense is punishable by
“[c]onfinement in a state jail for any term of not more
than two years or less than 180 days.” Tex. Penal Code
§ 12.35(a). But Texas provides two alternative paths.
First, it allows prosecutors to prosecute a “state jail
felony” like § 481.115 as a Class A misdemeanor, with a
maximum twelve-month sentence. Id. § 12.44(b). Second,
state jail felonies—even if prosecuted as such—can still
be punished as a misdemeanor. That section, Texas
Penal Code § 12.44(a), provides:
A court may punish a defendant who is convicted
of a state jail felony by imposing the confinement

6
permissible as punishment for a Class A
misdemeanor if, after considering the gravity and
circumstances of the felony committed and
[various other considerations], the court finds
that such punishment would best serve the ends
of justice.
Mr. Dozier pleaded guilty to violating § 481.115. The
prosecutor recommended a sentence of nine months,
citing § 12.44(a). The plea agreement and a joint motion
were submitted to the court, asking to “find [Dozier]
guilty of a State Jail Felony as charged and impose
confinement for a Class A misdemeanor.” Supplemental
Appendix of Defendant-Appellant, Tremayne Dozier at
12, United States v. Dozier, 949 F.3d 322 (7th Cir. 2020)
(No. 18-3447), ECF No. 13 (“CA7 Supp. App.”).
The magistrate granted the motion, accepted the
plea, and recommended a sentence of nine months to the
presiding district judge. Id. at 28-30. The magistrate’s
entered plea order stated: “Defendant pleaded guilty to
the offense of UNLAWFUL POSSESSION OF A
CONTROLLED SUBSTANCE TO-WIT: COCAINE
12.44a.” CA7 Supp. App. at 28 (emphasis added). The
state judge adopted the magistrate’s order and entered
the recommended sentence on May 3, 2006. Id. at 30; Pet.
App. 52a. Mr. Dozier ended up serving nine months in
Texas jail. As the plea agreement itself acknowledged,
Mr. Dozier could “withdraw [his] plea if the Court
rejects any plea bargain made in this case.” CA7 Supp.
App. at 24. Thus, because the judge accepted the
agreement with its stipulated sentence under § 12.44(a),
the maximum possible sentence was the misdemeanor
range that statute permitted. Had the judge refused to
be bound by the terms of § 12.44(a), Mr. Dozier could

7
have (and would have) exercised his right to withdraw
the guilty plea—a fact stipulated to by all parties.
B. Mr. Dozier’s 2017 Plea and Sentencing
More than a decade later, Mr. Dozier was charged in
federal
court
with
conspiracy
to
possess
methamphetamine with intent to distribute. See 21
U.S.C. §§ 846, 841(a)(1), 841(b)(1)(A).1 The government
filed a notice under 21 U.S.C. § 851 informing the district
court that it intended to rely on Mr. Dozier’s 2006 Texas
conviction to enhance his mandatory-minimum sentence
under 21 U.S.C. § 841(b)(1)(A).
Mr. Dozier entered a guilty plea a few weeks later,
but contested the § 851 notice filed by the government.
Because the plain language of § 12.44(a), coupled with his
plea agreement, meant that the Texas judge had been
required to sentence his offense as a misdemeanor, Mr.
Dozier argued his previous conviction was not a “felony
drug offense” under the plain language of § 841. Indeed,
had the Texas judge refused to sentence Mr. Dozier
under § 12.44(a), Mr. Dozier would have been entitled to
withdraw his plea, and the factual basis for Mr. Dozier’s
conviction would thus have collapsed. Mr. Dozier argued
that his prior conviction might be called a “state jail
felony” in Texas, but that the title of the state-law crime
is immaterial for purpose of § 841. All that matters is
whether the crime is “an offense that is punishable by
imprisonment for more than one year under any law ….
of a State.” 21 U.S.C. § 802(44).

1

Mr. Dozier was also charged with possession of methamphetamine
with intent to distribute, a violation of 21 U.S.C. § 841(a)(1) and
(b)(1)(B)(viii). This charge was later dropped.

8
Acknowledging this was a difficult issue, and that the
government’s use of the § 851 notice to seek such a high
mandatory minimum was “very harsh,” Pet. App. 32a,
the trial judge ultimately rejected Mr. Dozier’s
argument. The judge sentenced Mr. Dozier to a
mandatory minimum of twenty years’ imprisonment,
followed by ten years’ supervised release, concluding
that this ruling was required “under the current state of
the law.” Id.
C. The Seventh Circuit’s Decision Below
A split panel of the Seventh Circuit rejected Mr.
Dozier’s arguments on appeal. The majority concluded
that Mr. Dozier’s Texas state-jail conviction was
“punishable” by more than one year’s imprisonment
because the offense had a two-year maximum sentence
under some circumstances. Pet. App. 13a. The majority
relied on Fifth Circuit precedent dealing with the CSA,
as well as with the Armed Career Criminal Act—a piece
of legislation whose “definition of ‘felony’ is materially
identical” to that at issue here. Pet. App. 9a.
Judge Hamilton disagreed. As Judge Hamilton
explained in his dissenting opinion, “[a]fter CarachuriRosendo …. it is not enough that Texas cited a drugpossession statute labelled as a felony as Dozier’s offense
of conviction.” Pet. App. 14a-15a. The text of § 802(44)
controls what a “felony drug offense” is; how a state
refers to the crime is irrelevant. See Pet. App. 17a
(“State-law labels do not control under 21 U.S.C.
§ 802(44).”). And under the plain language of that
statute, the key question was whether the Texas judge,
at the time of conviction, had legal authority to send Mr.
Dozier, specifically, to prison. Simply put: “She did not.”
Pet. App. 15a.

9
Judge Hamilton further explained that this result
was warranted by this Court’s decision in CarachuriRosendo—a position with which circuit courts across the
country have agreed. See Pet. App. 20a-21a (citing
United States v. Pruitt, 545 F.3d 416 (6th Cir. 2008);
United States v. Simmons, 649 F.3d 237 (4th Cir. 2011)
(en banc); United States v. Haltiwanger, 637 F.3d 881
(8th Cir. 2011); United States v. Valencia-Mendoza, 912
F.3d 1215 (9th Cir. 2019); United States v. Brooks, 912
F.3d 1215 (10th Cir. 2014)). As Judge Hamilton put it,
“[t]he logic of Carachuri-Rosendo and [United States v.]
Rodriquez shows that the focus must be the punishment
legally available at the time of conviction.” Pet App. 19a.
This timely petition followed.
REASONS FOR GRANTING THE PETITION
I. The Circuits Are Split On The Question Presented
The federal courts of appeals are divided on the
question presented. Had Mr. Dozier’s case come up
through the Fourth, Ninth, or Tenth Circuits, or likely
through the Eighth Circuit, he would not have received
an extra ten years in prison. Those courts hold that a
defendant’s prior conviction is a “felony drug offense”
only if that defendant could have been sentenced to more
than one year of imprisonment under the applicable
state sentencing statute at the time of their conviction.
By contrast, the First, Fifth, Sixth, and Seventh Circuits
have held that a defendant’s prior conviction can be a
“felony drug offense” even when their maximum
possible sentence was less than one year of
imprisonment under the applicable state sentencing
statute at the time of conviction. In these circuits, it is
enough that the offense could have a felony-length
sentence under different circumstances.

10
This split results from the lower courts’ divergent
interpretations of this Court’s decision in CarachuriRosendo v. Holder, 560 U.S. 563. In Carachuri-Rosendo,
this Court held that when a state prosecutor has
“specifically elected to abandon a recidivist
enhancement under state law” when prosecuting a
particular offense, that offense is “punishable” only to
the extent authorized for non-recidivists. Id. at 579-80
(citations omitted). Mr. Carachuri-Rosendo was in fact a
recidivist, and a different state prosecutor could have
chosen to seek a recidivist enhancement. See id. at 570–
71. Nonetheless, this Court held that later federal courts
were precluded from considering the maximum sentence
that Mr. Carachuri-Rosendo’s underlying conduct might
have warranted, had the state prosecutor made a
different decision, in determining the extent to which
Mr. Carachuri-Rosendo’s offense was “punishable” for
purposes of federal law. As this Court admonished, such
federal overriding of state officials’ discretionary
sentencing decisions “denigrate[s] the independent
judgment of state prosecutors to execute the laws of
those sovereigns.” Id. at 580.
A. The Fourth,
Likely the
Convictions
“Punishable”
One Year

Ninth, and Tenth Circuits, and
Eighth Circuit, Hold That
Like Mr. Dozier’s Are Not
By Imprisonment for More Than

Mr. Dozier would have faced a mandatory minimum
of 10 years rather than 20 years in prison had he been
convicted of his federal offense in the Fourth, Ninth, or
Tenth Circuit, or likely in the Eighth Circuit. After
Carachuri-Rosendo, those circuits reconsidered their
pre-Carachuri-Rosendo precedent addressing the

11
maximum term for which a defendant’s prior offenses
were “punishable” under the CSA and U.S. Sentencing
Guidelines (“USSG”).2 These circuits agree that,
following Carachuri-Rosendo, offenses cannot be
“punishable” under the CSA or USSG for longer than
the maximum term permitted for a particular defendant
at the time of that defendant’s conviction. See United
States v. Valencia-Mendoza, 912 F.3d 1215, 1221-22 (9th
Cir. 2019); United States v. Brooks, 751 F.3d 1204, 1213
(10th Cir. 2014); United States v. Simmons, 649 F.3d 237,
244-45 (4th Cir. 2011) (en banc); United States v.
Haltiwanger, 635 F.3d 881, 883-84 (8th Cir. 2011). Mr.
Dozier’s Texas conviction would not have been a “felony
drug offense” in these circuits.
In United States v. Simmons, for example, the en
banc Fourth Circuit held that a defendant could not be

2

The felon-in-possession statute, CSA, and USSG all employ the
same “punishable … for … [over] one year” formulation. See 18
U.S.C.§ 922(g)(1) (“a crime punishable by imprisonment for a term
exceeding one year”); 21 U.S.C. § 802(44) ( “[a]n offense that is
punishable by imprisonment for more than one year”); U.S.S.G.
§ 4B1.2 cmt. app. n. 1 (“conviction for an offense punishable by death
or imprisonment for a term exceeding one year”). Accordingly,
federal courts use these definitions interchangeably. See, e.g.,
United States v. Bates, 730 F. App’x 281, 285–86 (6th Cir. 2017)
(applying career offender case to § 922(g)); United States v. Brooks,
751 F.3d 1204, 1211–13 (10th Cir. 2014) (appying CSA case to
USSG). And although ACCA contains slightly different language,
see 18 U.S.C. § 924(e)(2)(A) (“an offense . . . for which a maximum
term of imprisonment of ten years or more is prescribed by law”),
federal courts apply the same analysis to ACCA. See, e.g., United
States v. Newbold, 791 F.3d 455, 462 (4th Cir. 2015) (stating that
CSA case “governs” reading of relevant ACCA language); United
States v. Romero-Leon, 622 F. App’x 712, 718–19 (10th Cir. 2015)
(finding that Brooks controlled reading of ACCA language).

12
deemed to have a prior “felony drug offense” for
purposes of the CSA when he had not faced the
possibility of a felony-length sentence at the time of
conviction in his case. The prior state drug conviction in
that case included neither findings of recidivism nor
findings of other aggravating factors—both of which
were needed to subject Simmons to a sentence of more
than a year under applicable state law. Simmons, 649
F.3d at 241. Referring to Carachuri-Rosendo’s
command to use “the conviction itself” as “the starting
place,” the Fourth Circuit decided it had to “focus first
on Simmons’s ‘conviction itself.’” Id. at 243-44 (quoting
Carachuri-Rosendo, 560 U.S. at 576) (emphasis added).
Because that conviction did not expose Simmons to a
sentence exceeding one year—even though his “conduct,
coupled with facts outside the record of conviction, could
have authorized a conviction of a crime punishable by
more than one year’s imprisonment,” id. at 244 (citation
and internal quotation marks omitted) (emphasis
added)—the Fourth Circuit held that Simmon’s offense
was not punishable by more than one year, id. at 250. The
Fourth Circuit acknowledged that it was creating a
circuit split with the Sixth Circuit on this point. Id. at
245 n.4.3
Mr. Dozier’s Texas conviction would not have
triggered an enhanced sentence under the Fourth

3

Following Simmons, the Fourth Circuit has continued to focus on
the maximum sentence permitted under the state sentencing
scheme applicable at the time of conviction. Accordingly, where a
defendant was sentenced under a state sentencing provision
permitting a felony sentence, the parties’ ad hoc agreement to a
lower sentence is not dispositive. See Valdovinos, 760 F.3d at 32730.

13
Circuit’s framework. The Simmons court ruled that
Carachuri-Rosendo nullified any approach “requiring a
federal court to calculate an offender’s maximum
punishment by interpreting a prior state offense in a
manner outlawed by the state.” 649 F.3d at 249. It also
looked to the “procedural protections afforded to
offenders” under state law. Id. at 245. Given § 12.44(a)’s
role in Texas’s “carefully crafted sentencing scheme,” id.
at 249—and the State’s procedural protections for
defendants who plead guilty in exchange for a
misdemeanor sentence under that statute—the Fourth
Circuit’s approach would not have treated Mr. Dozier’s
offense as “punishable” by over one year.
The Tenth Circuit has adopted the same approach as
the Fourth. See Brooks, 751 F.3d at 1212 n.6 (“[W]e
agree with much of what the Fourth Circuit majority
wrote in Simmons.”). Like the Fourth Circuit, the Tenth
noted Carachuri-Rosendo’s direction “to look at the
conviction itself,” and to what the state court actually
found in the defendant’s case—“not to what might or
could have been charged.” Id. at 1207 (citation omitted);
see also id. at 1210 (stating that “a recidivist increase
can only apply to the extent that a particular defendant
was found to be a recidivist”). Also like the Fourth
Circuit, the Tenth Circuit overturned precedent holding
that courts “must ‘focus on the maximum statutory
penalty for the offense.’” Id. at 1210 (citation omitted).
Instead, “in determining whether a state offense was
punishable by a certain amount of imprisonment, the
maximum amount of prison time a particular defendant
could have received controls.” Id. at 1213.
Later Tenth Circuit decisions have reaffirmed the
breadth of Brooks’s holding. See, e.g., United States v.

14
Romero-Leon, 622 F. App’x 712, 713 (10th Cir. 2015)
(holding that the prosecutor’s failure to give the
defendant notice of potential aggravating factors, which
limited the judge to a maximum one-year sentence,
meant that the offense did not qualify as a felony);
United States v. Mulay, 805 F.3d 1263, 1264 n.2 (10th
Cir. 2015) (holding that under Brooks, a defendant who
faced the possibility of only a nine-month sentence at the
time of his conviction would not be a career offender).
Thus, in Mr. Dozier’s case, the Tenth Circuit would
have focused on the maximum sentence Mr. Dozier could
have received when convicted—which, under § 12.44(a),
was not “more than one year.” 21 U.S.C. § 802(44).
The Ninth Circuit has gone even further. In United
States v. Valencia-Mendoza, the Ninth Circuit refused
to account for what the defendant’s exposure could have
been if different findings had been made, or what the
potential exposure was at some pre-conviction stage. 912
F.3d at 1216. The defendant had been convicted of an
offense that carried a maximum sentence of six months
without certain aggravating factors, and up to five years
if the jury or the judge found the aggravating factors. Id.
Because neither the jury nor the judge made those
findings and thus that particular defendant could not
have been punished by a sentence exceeding one year,
the court held that the prior conviction was not a felony
under the USSG. Id. at 1223-24. The Ninth Circuit thus
held that the “punishable” range for the prior offense
was limited not only by the record of conviction, but also
by the fact that the sentencing judge did not make
certain aggravating findings even after a conviction was
entered. Id.

15
Similarly, Texas law constrained Mr. Dozier’s judge
to apply a misdemeanor sentencing range once she
accepted Mr. Dozier’s plea and made the interests of
justice findings that § 12.44(a) required. Because Mr.
Dozier’s “offense—as actually prosecuted and
adjudicated—was punishable under [Texas] law by no
more than [twelve] months in prison,” Ninth Circuit law
would have prohibited a district court from considering
his prior conviction a felony drug offense. ValenciaMendoza, 912 F.3d at 1224.
Finally, the Eighth Circuit’s approach and reasoning
are consistent with the Fourth, Ninth, and Tenth’s. In
United States v. Haltiwanger, 635 F.3d 881 (8th Cir.
2011), the Eighth Circuit explained that determining
whether a prior conviction was punishable by more than
one year “necessarily requires an examination of the
maximum term of imprisonment to which [the defendant
himself] was exposed.” Id. at 883-84 (holding that “the
hypothetical possibility that some recidivist defendants
could have faced a sentence of more than one year is not
enough to qualify [the defendant’s] conviction as a
felony”). Thus, in Mr. Dozier’s case, the Eighth Circuit
likely would have joined the circuits on this side of the
split in looking to the maximum term of imprisonment to
which Mr. Dozier was exposed upon his conviction. It,
too, thus would have held that his conviction was
“punishable” by less than one year.
B. By Contrast, the First, Fifth, Sixth, and
Seventh Circuits Hold That Convictions Like
Mr. Dozier’s Are Punishable By Imprisonment
for More Than One Year
Mr. Dozier’s offense would be deemed “punishable”
by more than one year in the Seventh Circuit and three

16
others. These circuits have continued to fix an offense’s
“punishable” term at various points prior to the time of
conviction, even after Carachuri-Rosendo.
In this case, the Seventh Circuit majority held that a
judge’s pre-conviction approval of a plea agreement that
limited the sentence Mr. Dozier could receive—pursuant
to a statute with its own defined sentencing range—did
not determine the term by which Mr. Dozier’s offense
was “punishable.” See Pet. App. 13a. Because Mr. Dozier
pleaded guilty to an offense titled a Texas “State Jail
felony,” the court determined that the “punishable”
term for his offense remained the two-year maximum for
generic State Jail felonies. As such, the Seventh Circuit
set the point in time for defining an offense’s
“punishable” term at some point prior to conviction in
this case. Had the district court rejected the plea
agreement in this case, the Seventh Circuit reasoned,
Mr. Dozier might then have faced a conviction with a
sentence of up to two years. See Pet. App. 2a. The
majority thus ignored Mr. Dozier’s plea agreement,
which required the judge to apply § 12.44(a)’s sentencing
regime once she accepted his plea.
The Fifth Circuit takes a similar approach. Dealing
with the same Texas law at issue in Dozier, the Fifth
Circuit held in United States v. Rivera-Perez, 322 F.3d
350, 352 (5th Cir. 2003) (per curiam), that “the crime was
‘punishable’ by more than a year’s imprisonment,”
regardless of “circumstances peculiar to the particular
defendant,” such as a sentencing regime that limited the
sentence the defendant could receive upon conviction.
The Fifth Circuit reaffirmed this holding in United
States v. Harrimon, finding that the offense’s
“punishable” range is determined by “the maximum

17
term prescribed by the relevant criminal statute,”
regardless of “the sentencing judge’s discretionary
decision either to impose a lesser sentence or to allow
the prosecutor to prosecute the offense as a
misdemeanor.” 568 F.3d 531, 534 n.3 (5th Cir. 2009)
(emphasis added).4 The Fifth Circuit has continued to
follow Rivera-Perez and Harrimon in the years since
Carachuri-Rosendo. See, e.g., United States v. Dixon,
724 F. App’x 334, 335 (5th Cir.) (involving a plea
agreement pursuant to 12.44(a), as in Dozier), cert.
denied, 139 S. Ct. 250 (2018).
The First Circuit has ruled the same way, holding
that a state-court offense was “punishable” up to the
maximum term allowable for the criminal conduct in any
of that state’s courts. United States v. Lopez, 890 F.3d
332, 337 (1st Cir.) (holding that the maximum
punishment a state superior court could have imposed
for the offense—rather than that which could be
imposed by the state district court in which the
conviction was actually rendered—determined the
“maximum term allowable”), cert. denied, 139 S. Ct. 261
(2018).
The Sixth Circuit also falls on the Seventh Circuit’s
side of the line. While it holds that a defendant is not
deemed “punishable” up to the maximum sentence that
the hypothetical worst offender could receive for the
convicted offense, United States v. Pruitt, 545 F.3d 416,
422-23 (6th Cir. 2008), it still allows courts to consider
4

This holding goes beyond Dozier, finding that even if the offense
was—pursuant to Texas Penal Code § 12.44(b)—prosecuted and
sentenced as a misdemeanor, that offense remains punishable as a
felony because the court was not obligated to approve the
downward departure.

18
the maximum sentence permitted by a statute’s
“aggravated” range for a hypothetical defendant in the
same criminal history category, id. at 420-21. The Sixth
Circuit thus looks at whether the defendant “could have
faced the aggravating factors necessary to impose a
sentence within the aggravated range,” rather than
whether the defendant did face those factors. Id. at 421
(emphasis added).5 The Sixth Circuit has continued to
apply this rule following Carachuri-Rosendo. See
United States v. Bates, 730 F. App’x 281, 286 (6th Cir.
2017) (finding Arizona’s aggravated sentencing scheme
susceptible to the same analysis as the North Carolina
scheme in United States v. Pruitt).
Thus, in the Fourth, Ninth, and Tenth Circuits, and
likely in the Eighth Circuit as well, Mr. Dozier’s prior
conviction would not be deemed “punishable by
imprisonment for more than one year,” because at the
time of sentencing he could not have been sentenced
under Texas law to more than twelve months’ jail time.
But in the First, Fifth, and Seventh Circuits, and likely
in the Sixth Circuit, Mr. Dozier would be subject to a
ten-year sentence enhancement—all because another,
hypothetical defendant could have been sentenced to
two years’ imprisonment.

5

This approach fixes the offense’s “punishable” range at a time prior
to conviction, because under the state-law scheme at issue an
aggravated sentence could only be imposed if aggravating factors
were either found by the jury or admitted to by the defendant. See
Pruitt, 545 F.3d at 420–21.

19
II. This Case Presents an Important, Recurring
Question of Sentencing Law, and Is An Excellent
Vehicle to Resolve That Question
This split among the courts of appeals means that
defendants in some circuits are sentenced to
significantly longer terms merely because of
enhancements that would not apply in other circuits.
Divergent interpretations of the phrase “punishable by
… over one year” can make an enormous difference to
defendants facing such enhancements. For Mr. Dozier,
whether his prior conviction qualified as a felony
determined whether he received a mandatory minimum
of ten years or twenty under the CSA. Pet. App. 4a-5a.
At times, the disparity is even starker: In felon-inpossession cases, for example, readings of the same
language determine whether the conduct is not a crime
at all or whether the conduct is a crime for which the
defendant receives a mandatory ten-year minimum
sentence. See, e.g., Dixon, 724 F. App’x at 335. And as
the broad and ongoing circuit split on this issue
illustrates, the statutory interpretation question
presented here repeatedly arises in criminal cases. See
supra Part I.
This circuit split also strips many persons previously
convicted in state courts of “fair warning about what the
law demands of them.” United States v. Davis, 139 S. Ct.
2319, 2323 (2019). The split allows identical state
convictions to qualify as felonies in some circuits but not
others. It therefore leaves such defendants with “no sure
way to know what consequences will attach to their
conduct.” Id.; see also Rehaif v. United States, 139 S. Ct.
2191, 2194 (2019) (holding that, to convict a person under
18 U.S.C. § 922(g), “the Government … must show that

20
the defendant knew he possessed a firearm and also that
he knew he had the relevant status when he possessed
it.”). Only by resolving this question can this Court
remedy these notice and due process problems.
The courts of appeals will not resolve this dispute on
their own. The Fourth, Ninth, and Tenth Circuits have
all set aside their pre-Carachuri precedent and held that
offenses may not be deemed “punishable” by more than
the maximum sentencing range to which a particular
defendant was subject at the time of his conviction. In
doing so, the Fourth Circuit acknowledged an explicit
conflict with the Sixth Circuit. See Simmons, 649 F.3d at
245 n.4 (“We acknowledge that this conclusion is at odds
with that of the Sixth Circuit.”). The First, Fifth, Sixth,
and Seventh Circuits, however, have stuck with (and in
some instances reaffirmed) their precedent, even though
Carachuri-Rosendo was decided ten years ago. See, e.g.,
Lopez, 890 F.3d at 340-41 (acknowledging CarachuriRosendo but finding it inapplicable); supra n.3.6
Finally, no vehicle problem prevents the Court from
addressing the question presented here. Mr. Dozier
received a sentence of twenty years—the mandatory
minimum for certain recidivists under 21 U.S.C.
§ 841(b)(1)(A) (2018)—solely because the district judge
6

Indeed, the decision below resembled the Seventh Circuit’s preCarachuri reasoning in United States v. Perkins, 449 F.3d 794 (7th
Cir. 2006). Perkins held that a defendant could be deemed to have
committed a “serious” state offense based on a state conviction for
which the state judge did not make the findings or provide the
notice necessary to trigger the state’s recidivism enhancements—
and, in fact, did not subject the defendant to the higher sentence. Id.
at 796. The court reasoned that the defendant was nevertheless
“exposed” to the higher sentence. Id. at 797.

21
ruled that his prior conviction qualified as a “felony drug
offense.” Mr. Dozier presented and preserved his
challenge to that determination in the lower courts. Pet.
App. 5a. And there is no danger of the case becoming
moot: Mr. Dozier’s unlawful sentence enhancement
extended his incarceration until at least 2034, and
doubled his mandatory minimum term of supervised
release from five to ten years.
III. The Seventh Circuit’s Decision Is Wrong
As Judge Hamilton recognized below, the Seventh
Circuit’s decision cannot be reconciled with this Court’s
precedents. In Carachuri-Rosendo, this Court rejected
a “hypothetical” approach to recidivist enhancements
under the CSA. 560 U.S. at 581-82. To reach this
holding—and to guide future federal judges through the
complex statutory web of sentencing enhancements—
the Court emphasized that the defendant’s “conviction
itself” was the “starting place” and the “relevant
statutory hook.” Id. at 576, 580. Facts “that could have
but did not serve as the basis for the state conviction and
punishment” could not determine the defendant’s
“punishable” term. Id. at 580. Instead, the defendant
must be “actually convicted of a crime that is itself
punishable as a felony under federal law.” Id. at 582.
The Court explained this framework through a
commonsense approach in United States v. Rodriquez,
553 U.S. 377 (2008):
Suppose that the defendant asked his or her
attorney, “What’s the maximum term I face for
the new offense?” An attorney aware of ACCA
would surely not respond, “10 years,” even
though 10 years is the maximum sentence

22
without the ACCA enhancement. See § 924(a)(2)
(2000 ed.).
Suppose that the defendant then pleaded guilty
to the felon-in-possession charge. … If the judge
told the defendant that the maximum possible
sentence was 10 years and then imposed a
sentence of 15 years based on ACCA, the
defendant would have been sorely misled and
would have a ground for moving to withdraw the
plea.
Id. at 383-84.
This Court’s decision in Moncrieffe v. Holder, 569
U.S. 184 (2013), reaffirmed the analysis outlined in
Rodriquez and Carachuri-Rosendo, again looking to the
maximum sentence that the particular defendant
actually faced at the time of conviction. As the Court
noted, Carachuri-Rosendo required that, “when
Congress has chosen to define the generic federal
offense by reference to punishment, it may be necessary
to take account of federal sentencing factors too.”
Moncrieffe, 569 U.S. at 195–96. The Court thus held in
Moncrieffe that “to qualify as an aggravated felony
[under the CSA], a conviction for the predicate offense
must necessarily establish those factors as well.” Id. at
196. This approach was designed to avoid “post hoc
investigation into the facts of predicate offenses that
[this Court has] long deemed undesirable,” and to
“preclude[e] the relitigation of past convictions in
minitrials conducted long after the fact.” Id. at 200–01.
Thus, “[t]he logic of Carachuri-Rosendo and
Rodriquez”—as well as Moncrieffe—“shows that the
focus must be the punishment legally available at the
time of conviction.” Pet. App. 19a (Hamilton, J.,

23
dissenting). Here, Mr. Dozier’s prior conviction did not
expose him to more than a year’s imprisonment, because
the trial judge, after considering factors enumerated in
the Texas Penal Code, specifically found that a
misdemeanor punishment would “best serve the ends of
justice.” Tex. Penal Code § 12.44(a). That determination
bound the court to sentence Mr. Dozier to less than a
year’s imprisonment.
This mandatory sentencing range was not the result
of ad hoc plea bargaining. It came from the Texas Penal
Code. Texas law provided that the offense at issue in this
case could be sentenced as a misdemeanor with a
maximum sentence of 12 months if the trial court
authorized that charge after making the requisite
findings. § 12.44(a); see Moncrieffe, 569 U.S. at 196
(stating that marijuana distribution offense was “neither
a felony nor a misdemeanor until we know whether the
conditions in [the statute] attach,” because “each [of the
felony and misdemeanor provisions] is drafted to be
exclusive of the other”).
Under the Texas scheme, once the prosecutor moves
the Texas court to make those findings, and the Texas
court does so, the court “must sentence the defendant to
misdemeanor punishment.” Pet. App. 16a (emphasis in
original). As Judge Hamilton noted below, “federal
recidivist rules can be governed by the post‐charging
actions of a state prosecutor to raise the legally
permissible sentence in an earlier case” under Rodriquez
and Carachuri-Rosendo; there is “no reason to
disregard similar actions that lowered the legally
permissible sentence in an earlier case.” Pet. App. 24a.
The approach taken by the Seventh Circuit and other
circuits on its side of the split raises significant

24
federalism concerns. The Texas legislature’s multi-tier
state jail felony scheme reflects the legislature’s
judgment about the seriousness of the various offenses,
and sets the label and punishable term accordingly. To
let a federal judge “apply his own … enhancement after
the fact so as to make the … offense ‘punishable’ as a
felony ... would denigrate the independent judgment of
state prosecutors to execute the laws of those
sovereigns.” Carachuri-Rosendo, 560 U.S. at 579–80. It
would also implicate Congress’s CSA sentencing
scheme: the CSA’s focus on the “punishable” term of
imprisonment—not the label of the offense—was
designed to bring a “measure of uniformity” to
“divergent state classifications of offenses.” Burgess v.
United States, 553 U.S. 124, 134 (2008).
The Seventh Circuit ignored both these state and
federal schemes by abstracting away the particular
sentencing range to which Mr. Dozier was exposed by
his conviction, and instead focusing on the umbrella label
of “state jail felony.” In so doing, the court below
condemned Mr. Dozier to a minimum sentence ten years
longer than Congress authorized.

25
CONCLUSION
The Court should grant the petition for certiorari.
Respectfully submitted,
SARAH M. KONSKY
DAVID A. STRAUSS
JENNER & BLOCK
SUPREME COURT AND
APPELLATE CLINIC AT
THE UNIVERSITY OF
CHICAGO LAW SCHOOL
1111 E. 60th Street
Chicago, IL 60637
THOMAS W. PATTON
JOHANES MALIZA
OFFICE OF THE
FEDERAL PUBLIC DEFENDER
600 E. Adams St., Third Floor
Springfield, IL 62701

August 3, 2020

MATTHEW S. HELLMAN
COUNSEL OF RECORD
NOAH B. BOKAT-LINDELL
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6000
mhellman@jenner.com

APPENDIX

1a
Appendix A

In the

United States Court of Appeals
For the Seventh Circuit
____________________
No. 18‐3447
UNITED STATES OF AMERICA,
Plaintiff‐Appellee,
v.
TREMAYNE T. DOZIER,
Defendant‐Appellant.
____________________
Appeal from the United States District Court
for the Central District of Illinois.
No. 18‐CR‐20002‐001 – James E. Shadid, Judge.
____________________
ARGUED SEPTEMBER 5, 2019 — DECIDED FEBRUARY 4,
2020
____________________
Before SYKES, HAMILTON, and SCUDDER, Circuit
Judges.
SYKES, Circuit Judge.
Tremayne Dozier was
arrested in 2017 for trafficking methamphetamine in
Decatur, Illinois. A federal grand jury indicted him for
conspiracy and possession of methamphetamine with
intent to distribute. Under the terms of the Controlled
Substances Act then in effect, Dozier faced increased

2a
penalties if he had a prior conviction for a “felony drug
offense.” 21 U.S.C. § 841(b)(1)(A), (b)(1)(B)(viii).1 A
“felony drug offense” is a drug‐related offense “that is
punishable by imprisonment for more than one year
under any law of the United States or of a State.” Id.
§ 802(44).
The government identified one such
conviction: in 2006 Dozier was convicted in Texas of
unlawful possession of cocaine, a “state jail felony”
punishable by imprisonment of six months to two years.
Dozier pleaded guilty to the conspiracy count. At
sentencing he objected to using the 2006 drug conviction
to enhance his sentence. The Texas case had been
resolved by plea bargain; in exchange for Dozier’s guilty
plea, the prosecutor agreed to a nine‐month sentence
based on section 12.44(a) of the Texas Penal Code, which
gives the sentencing judge the discretion to punish a
person convicted of a state jail felony by imposing a
period of confinement permissible for a Class A
misdemeanor—that is, a term not to exceed one year.
See TEX. PENAL CODE ANN. §§ 12.21, 12.44(a). The
Texas court accepted the plea agreement, found Dozier
guilty of the state jail felony, and imposed a nine‐month
sentence.
Dozier argued that the Texas conviction was not a
qualifying predicate because the terms of his plea
agreement exposed him to confinement of not more than
one year. The district judge rejected this argument and
1

The First Step Act of 2018, effective December 31, 2018, changed
recidivist penalties for drug crimes. We refer throughout this
opinion to the 2018 penalty provisions in the Controlled Substances
Act.

3a
imposed a sentence of 20 years, the mandatory minimum
for an offender with a prior felony drug conviction.
On appeal Dozier again argues that his 2006 Texas
conviction doesn’t qualify as a felony drug offense. We
disagree. Dozier pleaded guilty to and was convicted of
a two‐year state jail felony. It does not matter that the
sentencing judge accepted the plea bargain and
exercised the discretion conferred by state law to
sentence Dozier as if he were a misdemeanant. Dozier
was, in fact, convicted of a two‐year drug felony. We
affirm the judgment.
I. Background
In February 2006 Dozier was charged in Dallas
County with possession of less than one gram of cocaine
in violation of section 481.115 of the Texas Health and
Safety Code. The crime is a “state jail felony” under
Texas law, punishable by “[c]onfinement in a state jail
for any term of not more than two years or less than 180
days.”2 TEX. PENAL CODE ANN. § 12.35(a). On May 3
Dozier agreed to plead guilty in exchange for a sentence
of nine months. The written plea agreement, which he
signed, lists the offense and its punishment range—
“State Jail Felony, 180 days – 2 years State Jail”—and
specifies an “agreed sentence” of nine months, citing
2

Texas law has five felony classifications: “(1) capital felonies; (2)
felonies of the first degree; (3) felonies of the second degree; (4)
felonies of the third degree; and (5) state jail felonies.” TEX. PENAL
CODE ANN. § 12.04(a). Section 481.115(b) of the Texas Health and
Safety Code provides that the possession of a controlled substance
in an amount “by aggregate weight, including adulterants or
dilutants, [of] less than one gram” is “a state jail felony.”

4a
section 12.44(a) of the Texas Penal Code. That section
provides:
A court may punish a defendant who is convicted
of a state jail felony by imposing the confinement
permissible as punishment for a Class A
misdemeanor if, after considering the gravity and
circumstances of the felony committed and the
history, character, and rehabilitative needs of the
defendant, the court finds that such punishment
would best serve the ends of justice.
TEX. PENAL CODE ANN. § 12.44(a).3
The prosecutor submitted the agreement to a
magistrate judge that same day along with a motion to
“find [Dozier] guilty of a State Jail Felony as charged
and impose confinement for a Class A misdemeanor.”
Dozier joined the motion. The magistrate granted it,
accepted Dozier’s guilty plea, and found him “guilty of a
State Jail Felony as charged herein.” The magistrate
then recommended that the presiding district judge
adopt the plea agreement and impose a sentence of nine
months. The judge did so, entering judgment on May 3,
2006, convicting Dozier of the state jail felony and
ordering him to serve nine months in jail.
Fast‐forward to October 2017: Dozier was arrested
in Decatur for dealing crystal meth. In January 2018 a
3

A different subsection of the statute permits a state prosecutor,
with the court’s approval, to prosecute a state jail felony as a
misdemeanor offense: “At the request of the prosecuting attorney,
the court may authorize the prosecuting attorney to prosecute a
state jail felony as a Class A misdemeanor.” TEX. PENAL CODE
ANN. § 12.44(b). This subsection is not at issue here.

5a
grand jury indicted him for conspiracy to possess
methamphetamine with the intent to distribute, 21
U.S.C. §§ 846, 841(a)(1), 841(b)(1)(A), and possession of
methamphetamine with the intent to distribute, id.
§ 841(a)(1), (b)(1)(B)(viii). The government filed an
information under 21 U.S.C. § 851 notifying the court
that it intended to rely on Dozier’s 2006 Texas conviction
to enhance the applicable penalties under § 841.
Specifically, with one prior conviction for a felony drug
offense, Dozier faced a 20‐year minimum sentence on the
conspiracy count, see § 841(b)(1)(A), and a 10‐year
minimum on the possession count, see § 841(b)(1)(B).
Dozier pleaded guilty to the conspiracy count. At
sentencing he objected to using the Texas conviction to
enhance his sentence. He argued that the conviction
wasn’t for a felony offense because under the plea
agreement, he wasn’t exposed to imprisonment of more
than one year. The judge overruled the objection,
counted the conviction as a qualifying predicate, and
sentenced Dozier to a prison term of 20 years, the
mandatory minimum.
II. Discussion
Dozier reserved the right to appeal the judge’s ruling
that the Texas conviction qualifies as a predicate felony
drug conviction, triggering the enhanced minimum
sentence under § 841(b)(1)(A). We review de novo
questions of law related to sentencing. United States v.
Woolsley, 535 F.3d 540, 549 (7th Cir. 2008). When a
district court determines that a prior conviction counts
toward a recidivist sentencing enhancement, we review
de novo that application of the law to the fact of the prior

6a
conviction. United States v. Burge, 683 F.3d 829, 833
(7th Cir. 2012).
Under then‐existing law, a conviction for conspiracy
to distribute methamphetamine in the quantities at issue
here normally carried a 10‐year minimum sentence, but
a prior conviction for a “felony drug offense” raised the
mandatory minimum to 20 years. § 841(b)(1)(A). As
we’ve explained, a “felony drug offense” is a drug‐
related offense “that is punishable by imprisonment for
more than one year under any law of the United States
or of a State.” § 802(44). “The word ‘punishable’ in
ordinary English simply means ‘capable of being
punished.’” United States v. Nieves‐Rivera, 961 F.2d 15,
17 (1st Cir. 1992) (citations omitted).
Dozier asserts that he pleaded guilty to the Texas
drug charge—a two‐year felony—on the understanding
that he was only exposing himself to punishment for a
Class A misdemeanor, which limits confinement to one
year. See TEX. PENAL CODE ANN. § 12.35(a) (penalties
for state jail felonies); id. § 12.21 (misdemeanor
penalties). His plea agreement referred to section
12.44(a) of the Texas Penal Code, which gives the
sentencing judge the discretion to punish a person
convicted of a state jail felony by imposing the
confinement permissible for a Class A misdemeanor
after considering certain factors about the
circumstances of the crime and the character of the
offender. If the judge had rejected the plea agreement
and the magistrate’s recommendation of a nine‐month
sentence, Dozier would have been entitled to withdraw
his guilty plea. See TEX. CODE CRIM. PROC. ANN. art.
26.13(a)(2). Because his case was resolved under section

7a
12.44(a), Dozier argues that the conviction doesn’t
qualify as a predicate felony drug conviction and should
not have been used to enhance his sentence.
The Fifth Circuit, which includes Texas, has
considered and rejected this argument, albeit in the
context of a recidivist enhancement in the Sentencing
Guidelines. In United States v. Rivera‐Perez, the
defendant was convicted of illegal reentry after
deportation and objected to using his prior conviction for
a Texas state jail felony to increase his base offense level
under the Guidelines. 322 F.3d 350, 351 (5th Cir. 2003).
The applicable offense guideline added 16 levels if the
defendant was previously deported after a conviction for
a felony “crime of violence”; using language materially
identical to § 802(44), the application notes define
“felony” as “‘any federal, state, or local offense
punishable by imprisonment for a term exceeding one
year.’” Id. at 351–52 (quoting U.S.S.G. § 2L1.2(b)(1)(A)
cmt. n.1(B)(iv) (Nov. 2001)). The defendant argued that
his Texas conviction for a state jail felony did not trigger
the enhancement because his plea agreement relied on
section 12.44(a) of the Texas Penal Code and his actual
sentence was just 90 days.
The Fifth Circuit disagreed, explaining that “[t]he
plain language of [section] 12.44[a] indicates that the
crime remains ‘the felony committed’ even though the
defendant may be punished as if for a misdemeanor.”
Rivera‐Perez, 322 F.3d at 352. The court pointed to a
series of Texas cases confirming that the “crime remains
a felony even if punished as a misdemeanor under
[section] 12.44[a].” Id. (citing Fite v. State, 60 S.W.3d
314, 320 (Tex. Ct. App. 2001); Arriola v. State, 49 S.W.3d

8a
374, 375–76 (Tex. Ct. App. 2000); Hadnot v. State, 851
S.W.2d 378, 379 (Tex. Ct. App. 1993)).4 Finally, the court
noted that the defendant’s plea agreement clearly stated
that “although [he] was being punished as for a
misdemeanor, the judgment ‘shall constitute A FINAL
FELONY CONVICTION FOR DEFENDANT.’” Id.
Accordingly, the court held that a conviction for a Texas
state jail felony, a two‐year felony under state law,
qualifies as a predicate for the Guidelines enhancement
“regardless [of] whether the defendant is sentenced
under Texas Penal Code [section] 12.44[a].” Id.
Three years after Rivera‐Perez, the Fifth Circuit
reached the same conclusion in a case involving the
recidivist provision in the Armed Career Criminal Act
(“ACCA”), which raises the minimum sentence for
certain gun crimes if the defendant has prior convictions
for a “violent felony.” United States v. Harrimon, 568
F.3d 531, 533 n.3 (5th Cir. 2009). The ACCA defines
“felony” the same way as the Guidelines: “any crime
punishable by imprisonment for a term exceeding one
year.” 18 U.S.C. § 924(e)(2)(B). Richard Ray Harrimon
pleaded guilty to unlawfully possessing firearms, and
the court had to decide whether his two Texas
convictions for “fleeing by vehicle”—both state jail
felonies—counted as predicate “violent felonies” under
4

Another Texas case can be added to the Fifth Circuit’s list, one
decided after Rivera‐Perez. See Ex parte Palmberg, 491 S.W.3d
804, 805 n.1 (Tex. Crim. App. 2016) (affirming that a “felony
conviction is all that an applicant must show for a claim to be
cognizable in post‐conviction habeas corpus proceedings” and
stating that an applicant who was sentenced under section 12.44(a)
was “convicted of a state jail felony”).

9a
the ACCA. Harrimon, 568 F.3d at 533 n.3. One of
Harrimon’s Texas cases had been resolved under section
12.44(a) with a misdemeanor‐length sentence; he argued
that it could not be counted as a predicate. The Fifth
Circuit disagreed, reaching the same conclusion as it had
in Rivera‐Perez: “the relevant statute [describing the
state jail felony] plainly authorizes up to two years of
imprisonment … , a fact which is unaltered by the
sentencing judge’s discretionary decision [under section
12.44(a)] to impose a lesser sentence.” Id.
The Fifth Circuit’s reasoning is sound. We’d need a
good reason to disagree—or at least a statutorily
grounded basis for reaching a different conclusion under
the recidivist provisions in the Controlled Substances
Act. But the Act’s definition of “felony” is materially
identical to the definitions in the ACCA and the
Guidelines. Dozier has given us no basis for treating his
Texas state‐jail‐felony conviction differently in this
context.
Dozier argues instead that Rivera‐Perez and
Harrimon have been called into question by the
Supreme Court’s decision in Carachuri‐Rosendo v.
Holder, 560 U.S. 563 (2010). Carachuri‐Rosendo arose
under the Immigration and Nationality Act (“INA”) and
concerned eligibility for cancellation of removal, a form
of discretionary relief available to immigrants in
removal proceedings who have “not been convicted of
any aggravated felony.” 8 U.S.C. § 1229b(a)(3). The
INA’s definition of “aggravated felony” includes a “drug
trafficking crime,” id. § 1101(a)(43)(B), a phrase further
defined by cross‐reference to the definitions in Title 18:
a “drug trafficking crime” is “any felony punishable

10a
under the Controlled Substances Act (21 U.S.C. §§ 801
et seq.),” 18 U.S.C. § 924(c)(2), and a “felony” is a crime
for which the “maximum term of imprisonment
authorized” is “more than one year,” id. § 3559(a)(5).
Jose Carachuri‐Rosendo was placed in removal
proceedings based on two Texas misdemeanor
convictions for simple drug possession. Carachuri‐
Rosedo, 560 U.S. at 570–71. He conceded removability
but sought relief in the form of cancellation of removal.
The government opposed cancellation, arguing that his
second offense for simple possession could have been
prosecuted in federal court with a recidivist
enhancement, and in that scenario his offense would
have been a felony punishable by up to two years in
prison. Id. at 570. (State law, too, authorized a sentence
enhancement for recidivists, but Carachuri‐Rosendo
was not convicted of a recidivist‐enhanced offense. Id.
at 570–71.) Because his conduct could have been
prosecuted as a felony under the Controlled Substances
Act (by application of a recidivist enhancement), the
government insisted that Carachuri‐Rosendo was
ineligible for cancellation of removal.
The Fifth Circuit agreed, but the Supreme Court
reversed. The Court held that the INA “limits the
Attorney General’s cancellation authority only when the
noncitizen has actually been ‘convicted of a[n]
aggravated felony’—not when he merely could have
been convicted of a felony but was not.” Id. at 578
(quoting 8 U.S.C. § 1229b(a)(3)).
Carachuri‐Rosendo does not undermine Rivera‐
Perez and Harrimon. The defendants in the two Fifth
Circuit cases actually were convicted of felonies; they

11a
were not convicted of misdemeanors that could have
been prosecuted as felonies but were not. Just so here.
Dozier was convicted of a two‐year state jail felony but
received a misdemeanor‐length sentence pursuant to a
plea bargain.
Dozier also relies on United States v. Valencia‐
Mendoza, 912 F.3d 1215, 1216 (9th Cir. 2019), but that
case doesn’t help him. In Valencia‐Mendoza the
defendant pleaded guilty to illegal reentry after
removal; at sentencing the district court applied a
Guidelines recidivist enhancement for offenders with a
prior felony conviction based on the defendant’s
Washington conviction for possession of cocaine, a Class
C felony. Id. State law specified a five‐year maximum
for that felony class, but the statutory scheme also set a
mandatory six‐month cap on the sentence unless certain
aggravating factors were present. Id. at 1216–17. The
six‐month cap applied in the defendant’s case because no
aggravating factors were found; he was sentenced to
just 30 days. Id. at 1217. Applying Carachuri‐Rosendo,
the Ninth Circuit reversed and remanded for
resentencing without the enhancement. Because the
statutory maximum penalty for the crime was six
months, the defendant’s offense wasn’t punishable by a
term exceeding one year as required for the
enhancement. Id. at 1224.
Dozier’s Texas conviction is different.
12.44(a) is discretionary, not mandatory.

Section

For the same reason, Dozier’s reliance on the Eighth
Circuit’s decision in United States v. Haltiwanger is also
misplaced. In that case, the defendant was convicted of
conspiracy to distribute drugs and (like Dozier) faced a

12a
20‐year mandatory minimum under § 841 if he had a
prior conviction for a felony drug offense. 637 F.3d 881,
882 (8th Cir. 2011). The defendant had a Kansas
conviction for failing to affix a drug tax stamp, a crime
with a 13‐month statutory maximum. The district court
counted the conviction, imposed the 20‐year minimum
sentence, and the Eighth Circuit initially affirmed. Id.
at 882–83. After the Supreme Court remanded for
reconsideration in light of Carachuri‐Rosendo, the
Eighth Circuit reversed course. Because the defendant
was not a recidivist, the statutory maximum penalty for
his Kansas offense was seven months. Id. Accordingly,
the court concluded that the conviction did not qualify as
a prior felony drug conviction and remanded for
resentencing. Id. at 884.
Again, Dozier’s case is different. Under section
12.44, a Texas court has the discretion to punish a state
jail felony by imposing a misdemeanor‐length term of
confinement. The statutory maximum for the offense is
two years.
This case is closer to United States v. Graham, 315
F.3d 777, 783 (7th Cir. 2003). There the district court
sentenced the defendant to the 20‐year minimum term
under § 841 based on his prior Illinois conviction for
felony drug possession. Id. The defendant argued that
the conviction did not count as a prior drug felony
because the Illinois court had sentenced him to “first
offender probation,” which he successfully completed.
Id. at 781. We rejected that argument, holding that the
state court’s decision to sentence the defendant to
probation rather than prison “does not alter the fact that
he possesses a prior drug‐related felony conviction

13a
qualifying him for the
§ 841(b)(1)(B).” Id. at 783.

enhancement

under

To sum up, Dozier pleaded guilty to and was
convicted of a Texas state jail felony punishable by
confinement of six months to two years. For purposes of
the
Controlled
Substance
Act’s
sentencing
enhancements for prior felony drug convictions, the fact
that the statutory punishment range for Dozier’s offense
of conviction extended beyond one year is all that
matters. Texas law is clear that a conviction for a state
jail felony remains a conviction for a state jail felony
even if the sentencing court exercises the discretion
conferred by section 12.44(a) and imposes a
misdemeanor‐length sentence.
The district judge
properly counted Dozier’s Texas conviction as a
predicate felony drug conviction under § 841.
AFFIRMED

14a
HAMILTON, Circuit Judge, dissenting. No matter
how we decide this appeal, Mr. Dozier will be punished
severely for his 2018 federal methamphetamine
conviction. Our question is whether the mandatory
minimum sentence for his federal conviction is ten years
or twenty, imposed before the First Step Act took effect.
The answer depends on the legal effect of his 2006
conviction in Texas for possessing 0.4 grams of cocaine.
More specifically, the question is whether that
conviction counts as one for a prior “felony drug offense”
under 21 U.S.C. § 841(b) (2018), defined in 21 U.S.C.
§ 802(44) as “an offense that is punishable by
imprisonment for more than one year under any law of
the United States or of a State or foreign country that
prohibits or restricts conduct relating to” various
controlled substances.
The key word here is “punishable.” If a defendant’s
prior sentence was more than a year in prison, it is easy
to apply. If a defendant’s prior sentence was less than a
year in prison, it is also established that we focus on what
the defendant’s sentence for the crime could have been
under the law, not what it actually was. But in applying
that standard to a host of state statutes and sentencing
guidelines, the deceptively simple word “punishable”
becomes more complex. Two questions are decisive
here: who must be punishable with more than one year
in prison, and as of what point in the proceedings? My
colleagues do not answer those questions directly, but
the correct answers point toward reversal here.
After Carachuri‐Rosendo v. Holder, 560 U.S. 563
(2010), it is not enough that Texas cited a drug‐
possession statute labeled as a felony as Dozier’s offense

15a
of conviction. It also is not enough that others convicted
under that same statute might face more than a year in
prison. The question is instead whether, at the time of
conviction, the Texas judge had legal authority to send
Dozier himself to prison for more than one year. She did
not. Such a sentence was legally impossible after the
judge accepted Dozier’s binding plea agreement and
convicted him. I would accordingly find that the 2006
conviction was, for Dozier, not for “an offense that is
punishable by imprisonment for more than one year.”
Even if that conclusion is not correct, the use of the word
“punishable” in the Controlled Substances Act is at least
ambiguous as applied to this Texas conviction. I would
apply the rule of lenity and still remand this case for
resentencing.
I. Offense “Punishable” by More than One Year?
Dozier was charged with violating Texas Health &
Safety Code § 481.115, which makes possession of less
than a gram of cocaine a “state jail felony.” Ordinarily, a
state jail felony can be punished by up to two years in a
state jail. Tex. Penal Code § 12.35(a). Dozier was
certainly charged with an offense that was punishable by
imprisonment for more than one year.
But the Controlled Substances Act speaks of “a prior
conviction,” of course, not a prior charge. Pursuant to a
plea agreement, the Texas prosecutor and Dozier jointly
moved the court to “find him guilty of a State Jail Felony
as charged and impose confinement for a Class A
misdemeanor as provided in Sec. 12.44(a) of the Texas
Penal Code” (underlining in original). Section 12.44
gives judges and prosecutors two paths to ensure that a
“state jail felony” is punished as a misdemeanor:

16a
(a) A court may punish a defendant who is
convicted of a state jail felony by imposing the
confinement permissible as punishment for a
Class A misdemeanor if, after considering the
gravity and circumstances of the felony
committed and the history, character, and
rehabilitative needs of the defendant, the court
finds that such punishment would best serve the
ends of justice.
(b) At the request of the prosecuting attorney,
the court may authorize the prosecuting attorney
to prosecute a state jail felony as a Class A
misdemeanor.
Tex. Penal Code § 12.44. After committing to either the
(a) path or the (b) path, the judge must sentence the
defendant to misdemeanor punishment, which means
“confinement in jail for a term not to exceed one year.”
Id. § 12.21. Dozier’s binding plea agreement, for
example, required a sentence of nine months.
The Texas trial court granted the joint motion under
§ 12.44(a). The final judgment described the offense of
conviction using two phrases: “convicted of: state jail”
and “punishment reduced to: Class A misdemeanor.”
Importantly, the judgment also stated that Dozier had
the right to withdraw his guilty plea if the court had
rejected the misdemeanor punishment.1 As a result,
1

See Tex. Code Crim. Proc. art. 26.13(a)(2) (“[T]he court shall
inform the defendant whether it will follow or reject the agreement
in open court and before any finding on the plea. Should the court
reject the agreement, the defendant shall be permitted to withdraw
the defendant’s plea of guilty . . . .”).

17a
Dozier’s conviction barred the judge from sentencing
him to more than one year.
Texas was still free to refer to the offense of
conviction as a “state jail felony,” of course, and to attach
whatever collateral consequences that label carries in
Texas. I assume that Texas in fact regarded Dozier’s
conviction as a state jail felony. The majority concludes
that the label of the offense and the ordinary maximum
of two years control here, relying on Fifth Circuit
decisions that have so interpreted Texas Penal Code
§ 12.44(a). See ante at 12. But ours is a question of
federal statutory interpretation, not Texas law as such.
See United States v. Graham, 315 F.3d 777, 783 (7th Cir.
2003). State‐law labels do not control under 21 U.S.C.
§ 802(44). Burgess v. United States, 553 U.S. 124, 129
(2008).
More important, the analysis must look beyond the
maximum possible sentence for just any defendant.
There is no doubt that some defendants convicted of the
offense of conviction, possession of less than one gram of
cocaine, can be punished with as much as two years in
prison. See Tex. Health & Safety Code § 481.115(b); Tex.
Penal Code § 12.35(a). As I read the Supreme Court’s
decisions most closely on point, however, we have
answers to the two questions: who must be punishable,
and as of when? The issue is not whether anyone
convicted of the offense can be sentenced to more than
one year, but whether this defendant could have been
sentenced to more than one year. And that question
must be answered as of the time of conviction, not any
earlier stage, such as charging or plea negotiations.

18a
In United States v. Rodriquez, 553 U.S. 377 (2008),
and Carachuri‐Rosendo v. Holder, 560 U.S. 563 (2010),
the Supreme Court directed the focus to the situation of
this individual defendant. In Rodriquez, the defendant
was convicted in federal court of possessing a firearm as
a felon in violation of 18 U.S.C. § 922(g). His maximum
sentence was ten years, unless he had three previous
convictions for violent felonies or “serious drug
offenses,” in which case he faced a minimum fifteen years
in prison. “Serious drug offense” was defined for these
purposes to include state drug offenses “for which a
maximum term of imprisonment of ten years or more is
prescribed by law.” 18 U.S.C. § 924(e)(2)(A)(ii); see 553
U.S. at 381–82. For a first‐time offender, Rodriquez’s
three prior Washington drug felonies would have carried
maximum five‐year sentences. Because of his individual
criminal record, though, the offenses Rodriquez had
committed carried maximum sentences of ten years. Id.
at 380–81. The Supreme Court held that the maximum
sentences “prescribed by law” as “set by the applicable
recidivist provision” applicable to Rodriquez were the
relevant standards. Id. at 393. His state convictions
therefore triggered the enhanced federal sentence.
Rodriquez thus teaches us to focus on the
punishment this individual defendant faced in the prior
case. So far, so good. Two years later in Carachuri‐
Rosendo, the Supreme Court rejected the government’s
effort to stretch the logic of Rodriquez to the
punishment that some other hypothetical offenders
might face. See 560 U.S. at 577 n.12 (distinguishing
Rodriquez). In doing so, the Court reinforced the focus
on the particular defendant and taught that the

19a
punishment authorized by law must be measured at the
time of the individual defendant’s conviction, not the
time of charging.
The question in Carachuri‐Rosendo was whether,
under immigration law, the petitioner had been
convicted of an “aggravated felony.” The government
argued that the second of two drug possessions, which
had been treated as a misdemeanor under Texas law,
should count as an aggravated felony under federal
immigration law. According to the government, since
the offense could have been prosecuted as an aggravated
felony under federal law, the petitioner should be
treated as if he had been convicted of an aggravated
felony.
560 U.S. at 570.
The Supreme Court
unanimously rejected that proposal to rely on what could
have been. The record of the second conviction included
no finding about the first conviction. That distinguished
the case from Rodriquez and meant that the second
conviction did not count as an aggravated felony. Id. at
576–78 & n.12.
The Court explained further in Carachuri‐Rosendo
that the aggravated felony determination for federal law
had to be based on the record of conviction, not based on
what a different prosecutor might have tried to do with
a recidivist enhancement. Id. at 580–81. In other words,
the defendant must “have been actually convicted of a
crime that is itself punishable as a felony under federal
law.” Id. at 582.
The logic of Carachuri‐Rosendo and Rodriquez also
shows that the focus must be the punishment legally
available at the time of conviction, not the time of
charging.
Both opinions stressed the facts that

20a
recidivist enhancements (a) may not be known at the
time of charging and (b) ordinarily must be the subject
of formal notice and an opportunity to be heard and must
be reflected in the record before they can be used to
enhance a sentence. 553 U.S. at 389; 560 U.S. at 572, 576.
The same logic also works for the benefit of a
defendant who agrees to plead guilty to a lesser charge.
For example, my colleagues and I agree that a defendant
who is charged with a low‐level felony but who pleads
guilty to a serious misdemeanor (maximum sentence of
one year) has not been convicted of an offense
“punishable” by more than one year in prison. That is so
even if he faced more than one year at the time of
charging, and even if his actual conduct could have fully
justified a felony conviction and sentence. At the time of
conviction, such a defendant was not facing more than
one year in prison.
With the proper focus on the maximum sentence
legally applicable to this defendant, on this record, at the
time of conviction, I do not see a sound basis for
distinguishing such a plea agreement from this case. At
the time of his 2006 conviction, Dozier was not legally
subject to a sentence of more than one year.
Our colleagues in other circuits have applied
Rodriquez and Carachuri‐Rosendo to mandatory state
sentencing guidelines. Their decisions are consistent
with my reading of those Supreme Court cases. A
consensus is emerging that a maximum penalty set by
state sentencing guidelines—as applied to a particular
defendant—controls the federal question of what
punishment was available. For instance, in United
States v. Pruitt, 545 F.3d 416, 423 (6th Cir. 2008), the

21a
Sixth Circuit interpreted Rodriquez to require asking
whether “the particular defendant actually faced the
possibility of the enhancement.” Cases decided since
Carachuri‐Rosendo have continued this approach. See
United States v. Simmons, 649 F.3d 237, 243 (4th Cir.
2011) (en banc) (prior conviction “punishable” only to
extent that mandatory state sentencing guidelines
permitted for the particular defendant); United States v.
Haltiwanger, 637 F.3d 881, 884 (8th Cir. 2011) (same,
notwithstanding state’s label of prior conviction as
“felony”); United States v. Valencia‐Mendoza, 912 F.3d
1215, 1224 (9th Cir. 2019) (same); United States v.
Brooks, 751 F.3d 1204, 1211 (10th Cir. 2014) (same,
focusing on record of prior conviction); see also United
States v. Lockett, 782 F.3d 349, 352 (7th Cir. 2015)
(“under Rodriquez, if state court records do not
demonstrate that Lockett actually faced the possibility
of a recidivist enhancement, the 1990 convictions cannot
be used as qualifying offenses”).
These decisions point in the same direction I would
take: focus on the legally available maximum sentence,
on the state‐court record, at the time of conviction. Take
Simmons, in which the en banc Fourth Circuit followed
Carachuri‐Rosendo to overrule its prior precedents.
See 649 F.3d at 241. North Carolina categorized the
predicate offense as a “Class I felony.” Id. at 240.
Depending on a defendant’s history and other factors
established by state law, the maximum sentence could
have been over a year or no time at all. Id. at 241. Before
Carachuri‐Rosendo, the Fourth Circuit had used a
“worst possible criminal history” approach, imagining
how North Carolina would treat the worst recidivist

22a
charged with that crime. Id. at 241, 246. Simmons
abandoned this method because Carachuri had rejected
“considering hypothetical aggravating factors when
calculating [the] maximum punishment.” Id. at 244.
Instead, the Fourth Circuit looked at the sentence to
which Simmons himself was exposed based on the
sentencing factors proved by the state. That sentence
was only “community punishment,” with no prison at all.
Id. at 243.
This individualized evaluation cannot happen at the
time of charging. The main dissent in Simmons pressed
this very point: “the aggravated factors need not be part
of the indictment or formal charge, nor is the conviction
itself different from a conviction for the presumptive (or,
indeed, mitigated) offense.” Id. at 256 (Agee, J.,
dissenting). But the Fourth Circuit correctly rejected
this argument as contrary to Rodriquez and Carachuri‐
Rosendo. Id. at 243 (majority). In Rodriquez, the
Supreme Court explained that if state court records “do
not show that the defendant faced the possibility of a
recidivist enhancement, it may well be that the
Government will be precluded from establishing that a
conviction was for a qualifying offense.” 553 U.S. at 389.
Carachuri‐Rosendo reiterated this limit on Rodriquez:
“a recidivist finding could set the ‘maximum term of
imprisonment,’ but only when the finding is a part of the
record of conviction.” 560 U.S. at 577 n.12; see also, e.g.,
Brooks, 751 F.3d at 1210 (following this limit on
Rodriquez to overrule circuit precedent).
My colleagues err in concluding that Simmons and
similar decisions are not relevant here. The majority
distinguishes Valencia‐Mendoza, 912 F.3d at 1216, and

23a
Haltiwanger, 637 F.3d at 881, on the theory that the
lower sentences in those cases were mandated by law,
while the use of § 12.44(a) is discretionary. Ante at 10–
11. The theory does not stand up to those opinions or the
state‐court record here.
Both Rodriquez and
Carachuri‐Rosendo also dealt with decisions by
prosecutors that were discretionary at the outset. The
prosecutors could decide how to charge the defendants
and whether to seek recidivist enhancements. Section
12.44, in both subsections (a) and (b), gives the judge
alone or the judge and the prosecutor together
discretion to reduce the available sentencing range. But
once the judge exercised that discretion in Dozier’s 2006
case to accept a binding plea with a § 12.44(a) agreement,
the reduced range became as binding for Dozier as the
reduced ranges were in Valencia‐Mendoza and
Haltiwanger and the other mandatory state‐guideline
cases.
A prosecutor’s choice after charging to prove up a
recidivist enhancement, which controlled in Rodriquez,
is just the counterpart to a choice to offer a plea to a
misdemeanor or a binding plea for a misdemeanor
sentence under § 12.44(a). Under the North Carolina
guidelines in Simmons, for instance, “[o]nce the judge
identifies the appropriate range . . . he must choose the
defendant’s minimum sentence from within that range.”
649 F.3d at 240; see also N.C. Gen. Stat. § 15A‐1340.16(a)
(“[T]he decision to depart from the presumptive range is
in the discretion of the court.”). In other words, a North
Carolina judge has an initial and discretionary choice.
After the choice is made, though, the sentence is capped
as a matter of law. The same is true of the discretion

24a
authorized by § 12.44(a) and used in Dozier’s binding
plea agreement.2
Perhaps the Supreme Court meant to establish a
one‐way ratchet in Rodriquez—so that a post‐charging
recidivist enhancement can raise a maximum sentence
but a post‐charging, legally binding cap cannot lower it.
That seems to be the rule my colleagues implicitly adopt.
But that is not consistent with Carachuri‐Rosendo or
the recent decisions of our colleagues in other circuits.
Since federal recidivist rules can be governed by the
post‐charging actions of a state prosecutor to raise the
legally permissible sentence in an earlier case, I see no
reason to disregard similar actions that lowered the
legally permissible sentence in an earlier case. And
since Dozier retained an unqualified right to withdraw
his guilty plea if the judge had rejected the misdemeanor
punishment under § 12.44(a), his 2006 offense was not
punishable by more than one year in prison when he was
convicted. That cap was as legally binding as if Dozier
had pleaded guilty to an offense labeled a misdemeanor.

2

In fact, the leading Fifth Circuit case analyzing § 12.44(a)
emphasized the parallel to mandatory sentencing guidelines. In
United States v. Rivera‐Perez, relied on by the majority, ante at 6–
7, the Fifth Circuit said that it was “apply[ing] the essential
reasoning” of its decision the previous year in United States v.
Caicedo‐Cuero, 312 F.3d 697 (5th Cir. 2002). See 322 F.3d 350, 352.
Caicedo‐Cuero involved a Texas law that “provided a maximum
sentence of two years but mandated that first‐offenders should get
suspended sentences and probation.” Id. So while my colleagues
seek to draw a sharp line between § 12.44(a) and mandatory
sentencing guidelines, their similarities provided the “essential
reasoning” of the case the majority relies on.

25a
His mandatory minimum sentence in this case should
have been ten years, not twenty.
II. The Rule of Lenity
At the very least, we should recognize that the
Controlled Substances Act is ambiguous as applied to
Dozier’s case. The phrases “a prior conviction” and “an
offense that is punishable by imprisonment for more
than one year” simply do not dictate the treatment of
binding plea agreements to hybrid convictions under
§ 12.44(a). To my knowledge, only one other circuit has
examined a plea agreement with a binding sentencing
term after Carachuri‐Rosendo. A Fourth Circuit panel
also split on the question. See United States v.
Valdovinos, 760 F.3d 322 (2014); id. at 330 (Davis, J.,
dissenting). As here, the panel majority sided with the
government, declining to extend the reasoning of
Simmons to a binding plea agreement. But Judge
Davis’s dissent shows room for reasonable disagreement
on how Congress meant courts to analyze a binding plea
under an unusual statute like § 12.44(a).
I think the better reading is that Dozier’s 2006
conviction should not count under § 841(b), but even if I
thought the proper result were not clear, I would apply
the rule of lenity. The rule of lenity “applies if at the end
of the process of construing what Congress has
expressed there is a grievous ambiguity or uncertainty
in the statute.” Shaw v. United States, 137 S. Ct. 462,
469 (2016) (quotations omitted). “When a statute
remains ambiguous even after considering its text,
context, structure, history and purpose, then—and only
then—the rule of lenity may apply.” United States v.
Marcotte, 835 F.3d 652, 656 (7th Cir. 2016). “[T]he rule

26a
has been applied not only to resolve issues about the
substantive scope of criminal statutes, but to answer
questions about the severity of sentencing . . . .” United
States v. R.L.C., 503 U.S. 291, 305 (1992).
Acknowledging the rule’s limited scope, I believe this
to be an appropriate case for its application. Section
12.44(a) sets up a hypothetical almost tailor‐made to test
the boundaries of the increasingly case‐specific
arithmetic mandated by the Supreme Court in this
context. When such a hypothetical presents itself, we
should err on the side of lenity because “no citizen should
be held accountable for a violation of a statute whose
commands are uncertain, or subjected to punishment
that is not clearly prescribed.” United States v. Santos,
553 U.S. 507, 514 (2008).
I respectfully dissent. We should reverse and
remand for resentencing without the enhancement
based on Dozier’s 2006 conviction.

27a
Appendix B
[1]
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
UNITED STATES OF
AMERICA,

Docket No. 18-20002

Plaintiff,

Urbana, Illinois
November 9, 2018
12:05 p.m.

vs.
TREMAYNE T. DOZIER,
Defendant.

CONCLUSION OF SENTENCING HEARING
BEFORE THE HONORABLE JAMES E. SHADID
CHIEF UNITED STATES DISTRICT JUDGE
APPEARANCES:
For the Plaintiff:

RYAN FINLEN, ESQUIRE
Assistant United States
Attorney
201 South Vine Street
Urbana, Illinois 61802
217-373-5875

For the Defendant:

JOHANES CHRISTIAN
MALIZA, ESQUIRE
Assistant Federal Public
Defender

28a
600 East Adams, 2nd Floor
Springfield, Illinois 62701
217-492-5070
GEORGE F. TASEFF,
ESQUIRE
Assistant Federal Public
Defender
401 Main Street, Suite 1500
Peoria, Illinois 61602
309-671-7891
Court Reporter:

LISA KNIGHT COSIMINI,
RMR-CRR
U.S. District Court
201 South Vine, Suite 344
Urbana, Illinois 61802

Proceedings recorded by mechanical stenography;
transcript produced by computer.
[2] (In open court, 12:05 p.m.)
THE COURT: Let’s go on the record in the matter
of Tremayne Dozier, 18-CR-20002.
Resuming our sentencing hearing, we had, were in
argument last time. The matter was continued to today
for the parties to give some additional -- or supplemental
authority if they wish. The defense filed document 55.
The government responded with 56.
Are the parties ready to resume argument as to
sentencing alternatives?

29a
MR. MALIZA: Yes, Your Honor. But before we
proceed, we would request leave to enter a stipulation
agreed between the parties.
THE COURT: All right.
MR. MALIZA: And simply that if called to testify,
Mr. Dozier would have testified that had the Texas
judge not agreed to participate -- to proceed in
sentencing under misdemeanor rules, he would have
withdrawn his plea.
THE COURT: All right. Very good.
That’s the stipulation, Mr. Finlen?
MR. FINLEN: Yes, Your Honor. If Mr. Dozier had
testified, I believe that he would -- I would stipulate that
he would testify that that would be his approach in Texas
had the Texas district judge not [3] approved the plea
agreement.
THE COURT: Okay. All right, then, where were
we? Should we -- does the government wish to reargue
first?
MR. FINLEN: Your Honor, I reviewed Pruitt. It
doesn’t change the government’s position, mostly
because Pruitt deals with recidivist statutes. There are
state recidivist statutes. Just like the federal system in
Section 841 has a recidivist aspect, so, too, do state
systems where at the moment of charging the defendant
is facing an increased penalty by virtue of the
defendant’s criminal history.
That’s different than what the Texas provision
Section 12.44 has, in that Section 12.44 in Texas law has
an (a) and (b). Mr. Dozier was prosecuted under (a),

30a
which says that the judge can apply misdemeanor
penalties for a felony conviction, but it still remains a
felony conviction.
Importantly, Section (b) says that the prosecutor can
elect to charge and prosecute a defendant as a
misdemeanor. And I believe this is set forth in our
briefing; so I would rely on our briefing and simply state
that Pruitt, which was brought up after our
commencement of the sentencing hearing, doesn’t
change the government’s position.
[4] THE COURT: Okay.
defense.

Argument from the

MR. MALIZA: Thank you, Your Honor, just two
quick points.
One, I would address the government’s argument
that Elder is not really this case. I think it’s inapposite.
It’s distinguishable because Elder dealt with the
overbreadth of state Controlled Substances Act statutes
and schedules, vis-à-vis federal statutes; and we’re not
dealing with an overbreadth problem here. We’re
dealing, really, with simply the operation of that
12.44(a), Your Honor.
And to, to the government’s second point about what
could have happened had the prosecutor hypothetically
made a decision in a different circumstance and a
different defendant to proceed under (b) in a different
case, I would just reiterate, Your Honor, that we’re not
talking about a hypothetical defendant. We’re talking
about an actual defendant and an actual case;
specifically, Mr. Dozier and Mr. Dozier’s case with Mr.
Dozier’s specific option to withdraw his plea and plans to

31a
withdraw his plea had the judge elected not to take
advantage of Texas legislature’s misdemeanor
sentencings, Your Honor.
Thank you.
THE COURT: Thank you.
[5] So categorical approach, that’s the government’s
position, right?
MR. FINLEN: It is, Your Honor.
THE COURT: Okay. All right. Mr. Dozier, at this
time, you have an opportunity to make a statement if you
wish. You can do so from there. You can go to the
podium. Whatever you’re most comfortable with.
Or, you, are you -- I was asking for arguments as to
sentencing alternatives, too; so I’m sorry, let’s do that.
MR. FINLEN: Sorry.
THE COURT: Let’s back up. Let’s do it.
All right, Mr. Finlen.
MR. FINLEN: Thank you for the clarification, Your
Honor.
THE COURT: Well, actually, because that is the
basis for the objection, right?
MR. FINLEN: It is.
THE COURT: So let’s, let’s address it in this fashion.
All right. I don’t think there’s any question under the
circumstances that I have to find for the government and
Probation on this issue. I do believe under the

32a
circumstances that this approach with the 851 filing is
harsh, is very harsh, but is the state of the [6] law.
I can’t help but point out that in some cases, and in
the sentencing right before me, that the government in
a gun case took a, you know, argued that it -- in a sense,
the categorical approach ignores reality, and, and it does
ignore reality in this case. But it is the state of the law.
Under the circumstances, I believe the defendant has
a felony conviction at the time of his charging, at the time
through -- and I understand the defense position -- that
he could not face more than a misdemeanor sentence at
the sentencing; but I don’t think it eliminates the fact
that at one point, when charged, he was facing a term of
imprisonment for more than one year, from the moment
of the charging. And I believe, under the current state
of the law, that that requires me to find for the
government and Probation here. Maybe at some point,
we’ll be able to evaluate these cases a little different.
But for today, that would be -- that’s my ruling.
Okay. With that in mind, does that address all the
objections that you have, Mr. Maliza?
MR. MALIZA: Just to make sure I’m not being
accused of waiver, I believe it incorrectly addresses
them; but, yes, Your Honor.
[7] THE COURT: I understand.
So given my ruling, then -- and there are no
objections from the government, correct?
MR. FINLEN: That’s correct, Your Honor.
THE COURT: Okay. Given my ruling then, we
would have a total offense level of 31/criminal history

33a
category IV. The guideline range would be 151 to 188
months; but the statutory minimum, given my ruling,
would be 20 years.
And that would be ten years of supervised release;
ineligible for probation; $30,000 to $20 million fine;
restitution not an issue; and $100 special assessment.
Do the parties agree, given my ruling, that that -those are the guideline ranges and the statutory
mandatory minimum?
Mr. Finlen?
MR. FINLEN: I so agree, Your Honor.
THE COURT: Mr. Maliza?
MR. MALIZA: Yes, Your Honor, maintaining my
objections.
THE COURT: Understood.
Okay. Then any formal evidence from either side?
MR. FINLEN: From the government, no.
[8] MR. MALIZA: No, Your Honor.
THE COURT: Any argument?
MR. FINLEN: For the government, I would simply
request that, because of the statutory minimum, the
Court sentence Mr. Dozier to the statutory minimum in
this case, 240 months, followed by the ten years of
supervised release. I don’t believe a fine is appropriate
in this matter. And I do wish to inform the Court that,
upon sentencing, the government will move to dismiss
Count 4.
THE COURT: All right.

34a
Mr. Maliza, argument.
MR. MALIZA: Yes, Your Honor. May it please the
Court.
THE COURT: You may.
MR. MALIZA: Mr. Finlen.
Your Honor, I’d like to begin by acknowledging that
Mr. Dozier’s fiancee is in attendance today to support
him.
I feel compelled, based on some of the aggressive
waiver arguments that my colleague has made in the
past, the government, that we still ask for ten years;
although, I understand your ruling.
At any rate, Your Honor, I know the government’s
asking for 20 years in which he said, “That’s the
minimum,” but I want to make sure we discuss [17]
government wish to be heard on this?
MR. FINLEN: No. We have no objection.
THE COURT: In Mr. Dozier’s case, it will be waived.
MR. MALIZA: Thank you, Your Honor.
THE COURT: All right.
motion of the government?

Count 4, dismissed on

MR. FINLEN: Yes, Your Honor. Count -- I move to
dismiss Count 4.
And the other issue I’d like to bring to the Court’s
attention is that the defendant has a, pursuant to his plea
agreement, has waived his appeal rights with the
exception of one issue. If I could just read the issue that
the parties have agreed --

35a
THE COURT: All right.
MR. FINLEN: -- to waive.
The issue that is preserved is whether the
defendant’s conviction in the 282nd Judicial District
Court in Dallas County, Texas, Case Number F06-37199,
is a crime punishable by imprisonment of more than one
year, given that the judgment in Case Number F0637199 and filings therein, which were attached to the
plea agreement and submitted as an exhibit, include: (1)
a plea agreement containing an agreed sentence
applying Section 12.44(a) of the Texas Penal Code to
Defendant’s [18] guilty plea to a state jail felony and (2)
a judgment that informs the defendant that ‘if the Court
rejected such agreement, the defendant would be given
an opportunity to withdraw his plea prior to any finding
on the plea.’”
THE COURT: Okay. Government -- or the defense
agrees with that?
MR. MALIZA: Yes, Your Honor.
THE COURT: All right. Mr. Dozier, your appeal
rights are within 14 days or ask Mr. Maliza or Mr. Taseff
to do so on your behalf. Okay?
We’ll be in recess. Thank you, everybody.
MR. FINLEN: Thank you, Your Honor.
THE COURT: And thank you for -- I apologize for
getting us behind and through the noon hour.
(Hearing concludes, 12:25 p.m.)
***********

36a
REPORTER’S CERTIFICATE
I, LISA KNIGHT COSIMINI, RMR-CRR, hereby
certify that the foregoing is a correct transcript from the
record of proceedings in the above-entitled matter.
Dated this 4th day of December, 2018.
s/Lisa Knight Cosimini
Lisa Knight Cosimini, RMR-CRR
Illinois License # 084-002998

37a
Appendix C
AO 245B (Rev. 09/17) Judgment in a Criminal Case
Sheet 1

FILED
NOV 14 2018
CLERK OF THE COURT
U.S. DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS

UNITED STATES DISTRICT COURT
Central District of Illinois
UNITED STATES OF
AMERICA

)
)
)
v.
)
TREMAYNE T. DOZIER )
)
)
)
)
)
THE DEFENDANT:
☒
☐
☐

JUDGMENT IN A
CRIMINAL CASE
Case Number: 18-20002-001
USM Number: 22310-026
George Taseff and Johanes
Maliza
Defendant’s Attorney

pleaded guilty to count(s) 1
pleaded nolo contendere to count(s)
which was accepted by the court.
was found guilty on count(s)
after a plea of not guilty.

The defendant is adjudicated guilty of these offenses:

38a
Title & Section

Nature of Offense

Offense Ended

Count

21 U.S.C.
§§ 841(a)(1),

Conspiracy to
Possess 50 Grams
or More of

10/23/2017

1

841(b)(1)(A)
& 846

Methamphetamine
with the Intent to
Distribute

The defendant is sentenced as provided in pages 2
through 6 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
☐

The defendant has been found not guilty on count(s)

☒

Count(s)
4
☒ is ☐ are dismissed on
the motion of the United States.

It is ordered that the defendant must notify the United
States attorney for this district within 30 days of any change
of name, residence, or mailing address until all fines,
restitution, costs, and special assessments imposed by this
judgment are fully paid. If ordered to pay restitution, the
defendant must notify the court and United States attorney
of material changes in economic circumstances.
11/9/2018
Date of Imposition of Judgment

s/ JAMES E. SHADID
Signature of Judge
JAMES E. SHADID, Chief
U.S. District Judge
Name and Title of Judge

39a
11/14/18
Date

40a
AO 245B (Rev. 09/17) Judgment in Criminal Case
Sheet 2 – Imprisonment

Judgment  Page 2 of 6

DEFENDANT: TREMAYNE T. DOZIER
CASE NUMBER: 18-20002-001

IMPRISONMENT
The defendant is hereby committed to the custody of the
Federal Bureau of Prisons to be imprisoned for a total term
of:
240 Months
☒ The court makes the following recommendations to
the Bureau of Prisons:
1) It is recommended that the defendant serve his sentence
at FCI Greenville.
2) It is recommended that he serve his sentence in a facility
that will allow him to participate in the Residential Drug
Abuse Program and maximize his exposure to
educational and vocational opportunities.
3) Any fees incurred during defendant’s stay at a half-way
house are waived.
☒ The defendant is remanded to the custody of the
United States Marshal.
☐ The defendant shall surrender to the United States
Marshal for this district:
☐ at

☐ a.m. ☐ p.m. on

☐ as notified by the United States Marshal.

.

41a
☐ The defendant shall surrender for service of sentence
at the institution designated by the Bureau of
Prisons:
☐ before 2 p.m. on

.

☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services
Office.
RETURN
I have executed this judgment as follows:

at

Defendant delivered on
to
, with a certified copy of this judgment.
UNITED STATES MARSHAL

By:
DEPUTY UNITED STATES MARSHAL

42a
AO 245B (Rev. 09/17) Judgment in a Criminal Case
Sheet 3 – Supervised Release

Judgment -- Page 3 of 6

DEFENDANT: TREMAYNE T. DOZIER
CASE NUMBER: 18-20002-001

SUPERVISED RELEASE
Upon release from imprisonment, you will be on
supervised release for a term of:
10 Years
The defendant must report to the probation office in the
district to which the defendant is released within 72 hours
of release from the custody of the Bureau of Prisons.
1.

You must not commit another federal, state or
local crime.

2.

You must not unlawfully possess a controlled
substance.

3.

You must refrain from any unlawful use of a
controlled substance. You must submit to one
drug test within 15 days of release from
imprisonment and at least two periodic drug
tests thereafter, as determined by the court.
☐ The above drug testing condition is
suspended, based on the court’s
determination that you pose a low risk of
future substance abuse. (check if
applicable)

4.

☐ You must make restitution in accordance
with 18 U.S.C. §§ 3663 and 3663A or any

43a
other statute authorizing a sentence of
restitution. (check if applicable)
5.

☒ You must cooperate in the collection of
DNA as directed by the probation officer.
(check if applicable)

6.

☐ You must comply with the requirements of
the Sex Offender Registration and
Notification Act (34 U.S.C.§ 20901, et seq.)
as directed by the probation officer, the
Bureau of Prisons, or any state sex offender
registration agency in the location where
you reside, work, are a student, or were
convicted of a qualifying offense. (check if
applicable)

7.

☐ You must participate in an approved
program for domestic violence. (check if
applicable)

If this judgment imposes a fine or restitution, it is a
condition of supervised release that the defendant pay in
accordance with the Schedule of Payments sheet of this
judgment.
The defendant must comply with the following
conditions:
1. You shall not knowingly leave the judicial district in
which you are approved to reside without the permission
of the Court or probation officer, who shall grant
permission unless the travel would significantly hinder
your rehabilitation.

44a
2. You shall report to the probation officer in a
reasonable manner and frequency directed by the court
or probation officer.
3. You shall follow the instructions of the probation
officer as they relate to your conditions of supervision.
You shall answer truthfully the questions of the
probation officer as they relate to your conditions of
supervision, subject to your right against selfincrimination.
4. You shall notify the probation officer at least ten
days prior, or as soon as knowledge is gained, to any
change of residence or employment which would include
both the change from one position to another as well as
a change of workplace.
You must comply with the standard conditions that have
been adopted by this court as well as with any other
conditions on the attached page.

45a
AO 245B (Rev. 09/17) Judgment in a Criminal Case
Sheet 3A – Supervised Release

Judgment -- Page 4 of 6

DEFENDANT: TREMAYNE T. DOZIER
CASE NUMBER: 18-20002-001

ADDITIONAL SUPERVISED RELEASE TERMS
5. You shall permit a probation officer to visit him or
her at home or any other reasonable location between
the hours of 6 a.m. and 11 p.m., unless investigating a
violation or in case of emergency. The defendant
shall permit confiscation of any contraband observed
in plain view of the probation officer. You shall notify
the probation officer within 72 hours of being
arrested or questioned by a law enforcement officer.
6. You shall not knowingly possess a firearm,
ammunition, or destructive device as defined in 18
U.S.C. § 921(a)(4) or any object that you intend to use
as a dangerous weapon as defined in 18 U.S.C.
§ 930(g)(2).
7. You shall not purchase, possess, use, distribute, or
administer any controlled substance or psychoactive
substances that impair physical or mental
functioning except as prescribed by a physician. You
shall participate in a program for substance abuse
treatment as approved by the U.S. Probation Office
including not more than six tests per month to
determine whether you have used controlled
substances. You shall abide by the rules of the
treatment provider. You shall pay the costs of the
treatment to the extent you are financially able to
pay. The U.S. Probation Office shall determine your

46a
ability to pay and any schedule for payment, subject
to the court’s review upon request.
8. You shall refrain from excessive use of alcohol, as
defined as the legal limit of impairment in the state
in which you are located.
U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions
specified by the court and has provided me with a written
copy of this judgment containing these conditions. For
further information regarding these conditions, see
Overview of Probation and Supervised Release Conditions,
available at www.uscourts.gov.
Defendant’s Signature

Date

47a
AO 245B (Rev. 09/17) Judgment in a Criminal Case
Sheet 5 - Criminal Monetary Penalties

Judgment -- Page 5 of 6

DEFENDANT: TREMAYNE T. DOZIER
CASE NUMBER: 18-20002-001

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary
penalties under the schedule of payments on Sheet 6.

TOTALS

Assessment
$ 100.00

JVTA
Assessment *
$

Fine
$

Restitution
$

☐

The determination of restitution is deferred until
. An Amended Judgment in a
Criminal Case (AO 245C) will be entered after
such determination.

☐

The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each payee
shall receive an approximately proportioned
payment, unless specified otherwise in the priority
order or percentage payment column below.
However, pursuant to 18 U.S.C. § 3664(i), all
nonfederal victims must be paid before the United
States is paid.

*

Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.

48a
Name of
Payee

Total Loss

Restitution
Ordered

TOTALS

$

$

0.00

Priority or
Percentage

0.00

☐

Restitution amount ordered pursuant to plea
agreement $

☐

The defendant must pay interest on restitution
and a fine of more than $2,500, unless the
restitution or fine is paid in full before the
fifteenth day after the date of the judgment,
pursuant to 18 U.S.C. § 3612(f). All of the
payment options on Sheet 6 may be subject to
penalties for delinquency and default, pursuant to
18 U.S.C. § 3612(g).

☐

the court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
☐ the interest requirement is waived for the
☐ fine ☐ restitution.
☐ the
interest
requirement
for
☐ fine ☐ restitution is modified as follows:



the

Findings for the total amount of losses are required under
Chapters 109A, 110, 110A, and 113A of Title 18 for offenses
committed on or after September 13, 1994, but before April 23, 1996.

49a
AO 245B (Rev. 09/17) Judgment in a Criminal Case
Sheet 6  Schedule of Payments

Judgment -- Page 6 of 6

DEFENDANT: TREMAYNE T. DOZIER
CASE NUMBER: 18-20002-001

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is due
as follows:
A. ☒ Lump sum payment of $ 100.00 due immediately,
balance due
☐ not later than

, or

☐ in accordance with ☐ C, ☐ D, ☐ E, or ☐ F
below; or
B. ☐

Payment to being immediately (may be
combined with ☐ C,
☐ D, or ☐ F below);
or

C. ☐

Payment in equal
(e.g., weekly,
monthly, quarterly) installments of $
over a period of
(e.g.,
months
or
years), to commence
(e.g., 30 or 60
days) after the date of this judgment; or

D. ☐

Payment in equal
(e.g., weekly,
monthly, quarterly) installments of $
over a period of
(e.g.,
months
or
years), to commence
(e.g., 30 or 60
days) after release from imprisonment to a
term of supervision; or

E. ☐

Payment during the term of supervised
release will commence within
(e.g., 30

50a
or 60 days) after release from imprisonment.
The court will set the payment plan based on
an assessment of the defendant’s ability to pay
at that time; or
F. ☐

Special instructions regarding the payment of
criminal monetary penalties:

Unless the court has expressly ordered otherwise, if this
judgment imposes imprisonment, payment of criminal
monetary penalties is due during the period of
imprisonment. All criminal monetary penalties, except
those payments made through the Federal Bureau of
Prisons’ Inmate Financial Responsibility Program, are
made to the clerk of the court.
The defendant will receive credit for all payments
previously made toward any criminal monetary
penalties imposed.
☐ Joint and Several
Defendant and Co-Defendant Names and Case
Numbers (including defendant number), Total
Amount, Joint and Several Amount, and
corresponding payee, if appropriate.
☐ The defendant shall pay the cost of prosecution.
☐ The defendant shall pay the following court cost(s):
☐ The defendant shall forfeit the defendant’s interest
in the following property to the United States:
Payment shall be applied in the following order: (1)
assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest, (6)
community restitution, (7) JVTA assessment, (8)

51a
penalties, and (9) costs, including cost of prosecution and
court costs.

52a
Appendix D
CAUSE NO.
THE STATE OF TEXAS
V.
TREMAYNE DOZIER

F06-37199
§
§
§
§
§

IN THE 282nd DISTRICT
COURT JUDICIAL
DALLAS COUNTY,
TEXAS

JUDGMENT – PLEA OF GUILTY OR NOLO
CONTENDERE
JURY WAIVED – FELONY REDUCTION
REFERRAL TO MAGISTRATE
MAGISTRATE: TERRIE MCVEA
JUDGE PRESIDING: KAREN
GREENE
ATTORNEY FOR STATE: JOSH
HEALY
OFFENSE CONVICTED OF:

DEGREE CONVICTED OF:
STATE JAIL
DEGREE PUNISHMENT
REDUCED TO:
CHARGING INSTRUMENT:
INDICTMENT
TERMS OF PLEA BARGAIN (IN
DETAIL):

JANUARY TERM, A.D.
2006
DATE OF JUDGMENT
5/3/06
ATTORNEY FOR
DEFENDANT: SUSAN
ANDERSON
UNLAWFUL
POSSESSION OF A
CONTROLLED
SUBSTANCE, TO-WIT:
COCAINE
DATE OFFENSE
COMMITTED: 2/13/06

CLASS A
MISDEMEANOR
PLEA: GUILTY
9 MONTHS COUNTY
JAIL

53a
PLEA TO ENHANCEMENT
FINDINGS ON
PARAGRAPH(S): N/A
ENHANCEMENT: N/A
FINDINGS ON DEADLY
WEAPON, BIAS OR PREJUDICE,
AND/OR FAMILY VIOLENCE:
N/A
DATE SENTENCE IMPOSED:
5/3/06
COSTS: $236
PUNISHMENT ASSESSED: 9
MONTHS CONFINEMENT IN
THE COUNTY JAIL AND A FINE
DATE TO COMMENCE:
OF $0
5/3/06
TIME CREDITED:
RESTITUTION/
2/13/06-5/3/06
REPARATION: N/A
CONCURRENT UNLESS OTHERWISE SPECIFIED

On this day, set forth above, the above numbered and
styled cause having been duly referred to a magistrate
for the Criminal District Courts and District Courts
which give preference to criminal cases of Dallas County
came to trial pursuant to a negotiated plea as reflected
above. The State of Texas and Defendant appeared by
and through the above named attorneys and announced
ready for trial. Defendant appeared in person in open
court. Where defendant was not represented by
counsel, the court admonished the defendant as to the
dangers and disadvantages of self-representation and
the defendant knowingly, intelligently, and voluntarily
waived the right to representation by counsel.
Defendant in person in open court and in writing waived
his right to trial by jury with the consent and approval
of his attorney, the attorney for the State, and the Court.
Where shown above that the charging instrument was
by information instead of indictment, the defendant did,
with the consent and approval of his attorney, waive his

54a
right to prosecution by indictment and agreed to be tried
on an information.
All such waivers, agreements, and consents were in
writing and filed in the papers of this cause prior to the
defendant entering his plea herein. The defendant was
duly arraigned in open court and entered the above plea
to the charge contained in the charging instrument. The
defendant was admonished by the magistrate of the
consequences of said plea and defendant persisted in
entering said plea.
It plainly appearing to the
magistrate that the defendant was mentally competent
and that said plea was entered freely and voluntarily,
the said plea was accepted by the magistrate and is now
entered of record as the plea herein of the defendant.
The defendant in open court and in writing waived the
reading of the charging instrument, the appearance,
confrontation, and cross-examination of witnesses,
agreed that the evidence may be by stipulation, and
consented to the introduction of testimony orally, by
judicial confession, by affidavits, written statements of
witnesses, and any other documentary evidence. Such
waiver and consent was approved by the magistrate in
writing and filed in the papers of the cause. The
magistrate having heard the defendant’s waiver of the
reading of the charging instrument, defendant’s plea
thereto, the evidence submitted, and argument of
counsel was of the opinion from the evidence submitted,
that the defendant was guilty of the offense as shown
above and that the offense was committed by the
defendant on the date set forth above.
After considering the gravity and circumstances of
the felony committed and the history, character, and

55a
rehabilitative needs of the defendant, the magistrate
found that assessing punishment for a misdemeanor as
set forth above would best serve the ends of justice. The
magistrate further made its findings as to deadly
weapon, family violence, bias or prejudice, and
restitution and reparation as set forth above.
And when shown above that the charging instrument
contains enhancement paragraph(s), which were not
waived or dismissed, the magistrate, after hearing the
defendant’s plea to said paragraph(s) as set out above
and after hearing further evidence on the issue of
punishment, made its finding as set out above. If true,
the magistrate was of the opinion and finds defendant
has been heretofore convicted of said offense(s) alleged
in the said enhancement paragraph(s) as may be shown
above.
And when shown above that there was a plea bargain
agreement, the defendant was informed as to whether
the magistrate would follow or reject such agreement
and that if the Court rejected such agreement the
defendant would be given an opportunity to withdraw
his plea prior to any finding on the plea.
When it is shown above that restitution has been
ordered, but the court determines that the inclusion of
the victim’s name and address in the judgment is not in
the best interest of the victim, the person or agency
whose name and address is set out in this judgement will
accept and forward the restitution payments to the
victim.
And when it is shown below that payment of the costs
of legal services provided to the defendant in this cause
has been ordered, the magistrate found, and the Court

56a
approved the finding, that the defendant has the
financial resources to enable the defendant to offset said
costs in the above rendered.
Thereupon the said defendant was asked by the
magistrate whether he had anything to say, why said
sentence should not be pronounced against him, and he
answered nothing in bar thereof, and it appearing to the
magistrate that the defendant was mentally competent
and understanding of the proceedings, the magistrate
proceeded in the presence of the defendant and his
attorney to pronounce sentence against the defendant.
The Court has reviewed the findings, actions, and
recommendations of the magistrate in this cause, finds
that the terms of the negotiated plea agreement in this
cause have been followed and hereby adopts all findings
and recommendations of the magistrate in this cause.
IT IS THEREFORE ORDERED, ADJUDGED,
AND DECREED by the Court that the said judgment
as set forth above is hereby in all things approved and
that the said defendant be adjudged guilty of the offense
as shown above, and that the defendant be punished in
accordance with the punishment set forth above, and the
defendant is hereby sentenced to a term of confinement
or fine or both, as set forth above. The defendant shall
be taken by the Sheriff of Dallas County, Texas and
immediately confined by him in accordance with this
sentence and the provisions of the law of the State of
Texas governing such punishments. It is further
ordered that the defendant pay the fine, court costs,
costs and expenses of legal services provided by the
Court appointed attorney in this cause, if any, and
restitution or reparation as set forth herein.

57a
Appendix E

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
March 6, 2020
Before
DIANE S. SYKES, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 18-3447
UNITED STATES OF
AMERICA,
Plaintiff-Appellee,

Appeal from the
United States District
Court for the Central
District of Illinois.

v.
No. 18-CR-20002-001
TERMAYNE T. DOZIER,
Defendant-Appellant.

James E. Shadid,
Judge.

ORDER
On consideration of the petition for rehearing and for
rehearing en banc, no judge in active service has
requested a vote on the petition for rehearing en banc,
and all judges on the original panel have voted to deny

58a
rehearing. It is therefore ordered that the petition for
rehearing and for rehearing en banc is DENIED.

